  Social Security Administration
  Office of the Inspector General
Semiannual Report to Congress
      October 1, 2010 - March 31, 2011
           Social Security Administration
         Office of the Inspector General

                   Mission Statement
By conducting independent and objective audits, evaluations,
and investigations, we inspire public confidence in the
integrity and security of SSA’s programs and operations
and protect them against fraud, waste, and abuse. We
provide timely, useful, and reliable information and advice
to Administration officials, Congress, and the public.


                    Vision and Values
We strive for continual improvement in SSA’s programs,
operations, and management by proactively seeking new
ways to prevent and deter fraud, waste, and abuse. We
commit to integrity and excellence by supporting an
environment that provides a valuable public service while
encouraging employee development and retention and
fostering diversity and innovation.
                                                                                    Semiannual Report to Congress




     A Message from the Inspector General
    The Social Security Administration (SSA) has a 75-year history
    of serving the American people. The SSA Office of the Inspector
    General (OIG) exists to protect and improve the Agency’s programs,
    strengthening them so that SSA can provide timely and accurate
    benefits to the Americans who rely on them. I am proud of this office’s
    unwavering dedication to inspiring confidence in the integrity and
    security of SSA’s programs, as we strive to guard them against fraud,
    waste, and abuse.

    I am pleased, then, to present this Semiannual Report to Congress,
    covering the period October 1, 2010 through March 31, 2011.
    This report includes OIG’s significant audit, investigative, and legal
    accomplishments during the first half of Fiscal Year 2011.

    During this reporting period, we maintained a focus on persistent management challenges like
    improvements to customer service, as well as on high-priority investigations, such as those targeting
    disability applicants who exaggerate or lie about their ability to work or their resources, to receive
    benefits fraudulently.

    •	 We conducted oversight of SSA activities funded by the American Recovery and Reinvestment
       Act of 2009, including an evaluation of the Agency’s plan to build a replacement for its National
       Computer Center.

    •	 We closed more than 3,300 criminal investigations, with extensive work in the areas of SSA
       program fraud and enumeration fraud.

    •	 We launched a new action plan to combat increasing violations of Section 1140 of the Social Security
       Act, which prohibits the use of SSA words and symbols in advertisements and communications
       that the Agency has not endorsed.

    •	 We continued our work assessing the Agency’s plan to reduce improper payments under Executive
       Order 13520 and the Improper Payments Elimination and Recovery Act (IPERA). Additionally, my
       office served as a liaison between the Inspector General community and the Office of Management
       and Budget, to help carry out the Executive Order and IPERA.

    In everything we do, this office aims to improve SSA and its operations so that the Agency maintains
    its excellent record of service. I assure you that my office will continue to work with SSA and the
    Congress to help the Agency fulfill its duty to the millions of Americans who turn to it for help.


    S
    Patrick P. O’Carroll, Jr.
    Inspector General


October 1, 2010 - March 31, 2011                                                                               1
                                                                                              Semiannual Report to Congress




                   Social Security Administration
                   Office of the Inspector General




                                                 Contents
                        A Message from the Inspector General............. 1

                        Executive Summary................................................ 4

                        Introduction to Our Organization.................... 6

                        Impact....................................................................... 8

                        Value........................................................................23

                        People..................................................................... 39

                        Reporting Requirements and Appendices......... 42

                        Glossary of Acronyms.......................................... 68




October 1, 2010 - March 31, 2011                                                                                         3
Semiannual Report to Congress




EXECUTIVE SUMMARY
This report presents the significant accomplishments of SSA’s Office of the Inspector General (OIG) from October
1, 2010 through March 31, 2011. The report is organized according to three major goals—impact, value, and
people—set forth in the OIG Strategic Plan: Fiscal Years (FY) 2011-2015, first edition.


Impact
We work to have a positive impact on SSA programs and operations by enhancing their integrity, efficiency, and
effectiveness. During this reporting period, we received more than 49,000 allegations from SSA employees, the
Congress, the public, law enforcement agencies, and other sources. Our agents closed more than 3,300 criminal
investigations, resulting in 488 indictments and informations, 262 arrests, 698 criminal convictions (including pretrial
diversions), and 36 civil judgments/civil monetary penalty (CMP) assessments. During this reporting period, our
agents also secured one indictment and one conviction for fraudulent activity related to Hurricanes Katrina and
Rita; and they continued to work with law enforcement agencies to arrest subjects identified through the Fugitive
Felon Program. Highlighted investigations in this section relate to Social Security number (SSN) misuse, employee
misconduct, and threats against SSA employees.
Our auditors also had a significant impact during this reporting period, issuing 60 reports and making recommendations
on a wide variety of challenges facing the Agency. Our audit work over the past six months included reviews of SSA’s
initiatives connected to the American Recovery and Reinvestment Act of 2009 (Recovery Act), SSA’s efforts to protect personally
identifiable information (PII) available in the Death Master File (DMF), and customer waiting times in SSA field offices.

Value
Our organization strives to provide valuable products and services in a timely manner to the Congress, SSA, and
other key decision makers, while sustaining a positive return for each tax dollar invested in OIG activities. During
this reporting period, our auditors identified more than $152.3 million in questioned costs and about $27.6 million in
Federal funds that could be put to better use. Highlighted audits examine the recovery of Title II (Federal Old-Age,
Survivors, and Disability Insurance benefits) payments issued after beneficiaries’ deaths, and the implementation
of Phase I of the Martinez settlement agreement.
In the first half of FY 2011, we are reporting over $187 million in investigative accomplishments, including over
$36 million in SSA recoveries, restitution, fines, settlements, and judgments; and over $150 million in projected
savings from investigations resulting in the suspension or termination of benefits. In addition, we participated in
multi-agency investigations that resulted in over $27 million in savings, restitution, and recoveries for other agencies.
Our Cooperative Disability Investigations (CDI) Program continues to be one of our most successful initiatives,
contributing to the integrity of SSA’s disability programs. The efforts of our CDI Units during this reporting
period resulted in more than $128 million in projected SSA program savings, and over $82 million in savings to
other programs.
During this reporting period, our attorneys initiated 72 CMP cases (Section 1129 cases) that involved false statements,
representations, or omissions made in connection with obtaining or retaining benefits or payments under Titles II and
XVI (Supplemental Security Income) of the Social Security Act (the Act). Included in our investigative accomplishments
above is nearly $700,000 in penalties and assessments that our attorneys imposed through our CMP program.




4                                                                                          October 1, 2010 - March 31, 2011
                                                                                        Semiannual Report to Congress




People
The collective efforts of our employees continue to be the driving force behind this organization’s success in achieving
its mission. We provide an encouraging and rewarding work experience with the goal of retaining these exceptional
individuals. OIG leadership fosters an environment where employees can realize their potential through training
and developmental programs. OIG components convene training sessions to inform their employees about new
procedures and share best practices.
In addition, the OIG Organizational Health Committee annually assesses employee satisfaction levels and addresses
employee concerns. SSA and the Office of Personnel Management use a baseline of 65 percent of employees
responding positively (e.g., strongly agree or agree) to measure the statistical strength of an organization. Using
that definition of statistical strength, 12 of the 13 questions on the OIG survey had scores above 65 percent,
demonstrating that the health of the OIG organization is strong. Question 12 of this survey asks, “Considering
everything, how satisfied are you with your job?” Eighty-two percent of our employees indicated that they are
either satisfied or very satisfied with their job, which is significantly higher than the 70 percent rate reported for
SSA employees.




October 1, 2010 - March 31, 2011                                                                                      5
Semiannual Report to Congress




INTRODUCTION TO OUR ORGANIZATION
SSA OIG is comprised of the Immediate Office of the Inspector General and five major components: the Offices
of Audit, Counsel, External Relations, Investigations, and Technology and Resource Management.



Immediate Office of the Inspector General
The Immediate Office of the Inspector General (IO) provides the Inspector General with staff assistance on the
full range of his responsibilities. IO staff provides liaison with all agencies sharing common interests with the
OIG and ensures coordination with congressional committees, SSA, the Social Security Advisory Board, and
the Council of Inspectors General on Integrity and Efficiency. IO includes the Office of Quality Assurance and
Professional Responsibility (OQAPR), which performs two critical functions. First, it conducts exhaustive reviews
of each of the OIG’s component offices to ensure compliance with Federal laws and regulations, Agency policies,
and relevant professional standards. Second, OQAPR conducts thorough and timely investigations into allegations
of misconduct by OIG employees.



Office of Audit
The Office of Audit (OA) conducts and supervises financial and performance audits of SSA programs and operations,
and makes recommendations to ensure that program goals are achieved effectively and efficiently. Financial audits
determine whether SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and operations. OA
also conducts short-term management and program evaluations, and other projects on issues of concern to SSA,
the Congress, and the general public.



Office of the Counsel to the Inspector General
The Office of the Counsel to the Inspector General (OCIG) provides independent legal advice and counsel to
the Inspector General on a wide range of issues, including statutes, regulations, legislation, and policy directives.
OCIG also administers the CMP program, and advises the Inspector General on investigative procedures and
techniques, as well as on the legal implications of audit and investigative affairs.



Office of External Relations
The Office of External Relations (OER) develops the OIG’s media and public information policies, directs OIG’s
external and public affairs programs, and handles congressional, media, and public requests for information.
OER is responsible for preparing OIG publications and presentations to internal and external organizations,
and coordinating the OIG’s presence at SSA and other Federal events. In addition, OER prepares the OIG
Semiannual Report to Congress, congressional testimony, and coordinates with SSA’s Offices of Communications
and Legislation and Congressional Affairs.




6                                                                                  October 1, 2010 - March 31, 2011
                                                                                         Semiannual Report to Congress




Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste, abuse,
and mismanagement in SSA programs and operations. This includes wrongdoing by applicants, beneficiaries,
contractors, and third parties, as well as by SSA employees while performing their official duties. This office serves as
the OIG’s liaison to the Department of Justice (DOJ) on all matters relating to the investigation of SSA programs
and personnel. OI also conducts joint investigations with other Federal, State, and local law enforcement agencies.



Office of Technology and Resource Management
The Office of Technology and Resource Management (OTRM) provides administrative support to the Inspector
General and OIG components. OTRM formulates and executes the OIG budget, and is responsible for strategic
planning, performance reporting, and facility and property management. OTRM manages a national human
resources program, and develops and maintains the OIG’s administrative policies and procedures. OTRM also
maintains hardware, software, and telecommunications networks to support the OIG’s mission. Finally, OTRM
manages the OIG’s Allegation Management and Fugitive Enforcement Division (AMFED) and Electronic Crimes
Division.




October 1, 2010 - March 31, 2011                                                                                       7
Semiannual Report to Congress




IMPACT
The first goal of the OIG Strategic Plan is Impact. We are committed to enhancing SSA’s effectiveness and
efficiency through our investigative, audit, and legal activities. We strive to have maximum impact on SSA’s programs
and operations to ensure their continued integrity and reliability. During this reporting period, we completed
numerous audits, investigations, and legal initiatives covering major SSA program and management areas, which
had a significant impact on the detection and prevention of fraud, waste, and abuse. The summaries presented below
are indicative of our work over the past six months.


Audit Impact Initiatives
OA contributes to this strategic goal by conducting and supervising comprehensive financial and performance
audits, and by making recommendations to maximize the effective operations of Social Security programs. These
audits, along with short-term management and program evaluations, focus on those SSA programs and activities
most vulnerable to waste, fraud, and abuse.

American Recovery and Reinvestment Act of 2009
On February 17, 2009, the President signed into law the Recovery Act, P.L. 111-5. The Administration is committed
to investing Recovery Act funds with an unprecedented level of transparency and accountability so Americans know
where their tax dollars are going and how they are being spent. During this semiannual period, we issued two
reports related to SSA’s use of Recovery Act funds.

1) SSA’s New Data Center Site Alternatives
We initiated this review to evaluate the appropriateness of the short list of potential sites selected by the General
Services Administration (GSA)/SSA team for the new data center. Our contractor found that in general, the SSA
Site Selection Team had developed a highly sophisticated set of selection criteria to evaluate general geographic areas
and prospective individual properties. The Agency’s decision criterion sought to avoid both natural and man-made
risks that could be hazardous to the data center’s operation. In addition, the decision factors defined major site and
data center construction criteria that would ultimately have a significant impact on the site property to be selected.
However, there were questions concerning the process that SSA Site Selection Team employed to cull the site
properties down to a short list. For example, a traditional site selection team would normally incorporate best
practices consisting of three significant considerations during the site selection process: (1) projected number of
stages to narrow sites to a short list, (2) site data collection/validation techniques, and (3) roles and application of
team expertise. However, at the time of our review, the GSA/SSA team was unable to provide documentation on
how these considerations steered its decisions to eliminate potential sites.
Our contractor recommended that SSA work with GSA to (1) ensure the final site selection report included
all information necessary for any reader to understand the process; (2) assess the impact of the Environmental
Assessment on the site procurement schedule; (3) address every aspect of the electrical utility infrastructure; (4)
explain why the team re-categorized mandatory requirements as secondary requirements; and (5) reassess its level
of detail concerning the overall definition of the process that will be used to assess site criteria and compare site
properties.



8                                                                                     October 1, 2010 - March 31, 2011
                                                                                    Semiannual Report to Congress




2) Economic Recovery Payments - Catch-Up Payments
In this review, we determined that SSA properly certified 99.8 percent of the catch-up ERPs to beneficiaries who
were eligible to receive payment under the Recovery Act. In addition, we did not identify any beneficiaries who
were eligible for an ERP but were not certified to receive payment. However, we estimated that 989 beneficiaries
received improper payments totaling $247,250. Specifically, we estimated that:
• 449 beneficiaries received 2 ERPs because they did not have an SSN or had 2 different SSNs, resulting in $112,250
in improper payments.
• 468 beneficiaries filed for nonreceipt and subsequently negotiated both the original and replacement ERPs,
resulting in $117,000 in improper payments.
• 72 beneficiaries were concurrently entitled to Social Security benefits and SSI, and erroneously received 2 ERPs,
resulting in $18,000 in improper payments.
This occurred, in part, because SSA’s automated systems did not always identify whether ERPs had previously been
issued to beneficiaries without an SSN or under another SSN or payment record. Should another ERP be enacted
into law, we recommended SSA establish additional controls to prevent or detect the issuance of duplicate ERPs
to beneficiaries without SSNs. In addition, we recommended SSA take appropriate action to recover the duplicate
ERPs identified by our audit.




October 1, 2010 - March 31, 2011                                                                                 9
Semiannual Report to Congress




Impact of Alien Nonpayment Provisions on Field Offices Along the Mexican Border
The objective of our audit was to assess the impact of the alien nonpayment provisions (ANP) on SSA field offices
along the Mexican border.
Under the Act, benefits generally are not payable to noncitizens who have been outside the United States more
than six months. This provision attempts to avoid paying benefits to dependents and survivors residing in another
country who have little or no connection to the United States, and who were not dependent on the numberholder
while he or she was working.
We recognize current law requires that ANP beneficiaries routinely visit the United States to maintain their
benefits. However, this practice has a significant impact on some field offices along the Mexican border. We visited
four offices that are among the most visited by beneficiaries seeking to establish presence in the United States. We
found that three of the offices each provided services to a monthly average of 1,000 ANP beneficiaries. Providing
services to such a large volume of beneficiaries increases workload; adds to wait times; and can result in office space
issues. Requiring routine visits to the United States also places a burden on beneficiaries.
We recommended that SSA (1) continue to explore ways the Agency can use biometric technology to verify ANP
beneficiaries’ routine visits to the United States; (2) continue to work with the Department of Homeland Security
(DHS) to verify the identities of ANP beneficiaries at the border; and (3) consider placing field office personnel at
the border to verify the identities of ANP beneficiaries if the Agency is unable to establish agreements with DHS.
SSA agreed with recommendations 1 and 2, but did not agree with recommendation 3, as it did not want to place
SSA employees in situations that could compromise their safety.



Follow-up: Personally Identifiable Information Made Available to the Public Via the Death Master File

Our objective was to determine the status of corrective actions taken by SSA to address recommendations in our
June 2008 report, Personally Identifiable Information Made Available to the General Public Via the Death Master File.
We found that SSA implemented procedures to report erroneous death entry-related PII breaches to the United
States Computer Emergency Readiness Team each week. SSA also obtained a contractor to provide ongoing reviews
of DMF exposure related to 26,930 individuals whose PII SSA inadvertently exposed from July 2006 through
January 2009. The contractor evaluated available data for anomalous patterns that could identify organized misuse.
SSA stated that, to date, the contractor has identified no organized misuse.
However, SSA did not implement a risk-based approach for distributing DMF information, attempt to limit the
amount of information included on the DMF version sold to the public, or explore alternatives to inclusion of
individuals’ full SSN. SSA continued to publish the DMF knowing that its contents included the PII of living
numberholders. From May 2007 through April 2010, SSA’s publication of the DMF resulted in the breach of PII
for as many as 36,657 additional living individuals erroneously listed as deceased on the DMF. SSA made these
individuals’ SSNs; first, middle, and last names; date of birth; and State and ZIP codes of last known residences
available to users of the DMF, before learning they were not actually deceased. As such, we believe SSA should take
additional precautions to limit the number of reporting errors and the amount of personal information published
in the DMF—particularly the version sold to the public. We made two recommendations for corrective action.
The Agency disagreed with both recommendations, stating that delaying the release of the DMF updates would
greatly reduce its utility for fighting identity theft and fraud.


10                                                                                   October 1, 2010 - March 31, 2011
                                                                                          Semiannual Report to Congress




Customer Waiting Times in SSA’s Field Offices
The purpose of our audit was to determine whether SSA (1) had adequate procedures to monitor the length of
time visitors waited for service at its field offices; and, when applicable, (2) took actions to shorten long wait times.
SSA has experienced a steady increase in the number of visitors to its approximately 1,300 field offices—from 41.9
million visits in FY 2006 to 45.1 million visits in FY 2009.
SSA closely monitored field office wait times at the national, regional, and field office levels. Additionally, the Agency
had initiatives to reduce customer wait times. While we believe SSA is focused on providing timely service to its
customers, the Agency faces many challenges in maintaining and improving this level of service.
To SSA’s credit, wait times improved during our audit period. During the first 14 months of our 21-month audit
period, 7.5 percent of visitors waited more than 1 hour for service. In comparison, during the last 14 months of the
audit period, the percentage of customers who waited more than 1 hour decreased to 6.1 percent.
We recommended that SSA ensure regional offices establish performance goals. We also recommended that SSA
routinely evaluate the effectiveness of ongoing initiatives and, when necessary, take actions to ensure their success
on a national level and develop a mechanism for regional and field offices to share best practices.
SSA agreed with two of our recommendations, but did not agree to establish regional performance goals for customer
wait times at field offices. SSA stated that it was not reasonable to establish a “one size fits all” performance goal—even
at the regional level. We continue to believe establishing performance goals would provide clear and consistent guidance
to field office employees, and help identify offices that may need additional resources or other forms of assistance.




October 1, 2010 - March 31, 2011                                                                                        11
Semiannual Report to Congress




Field Office Workload Related to Nonconfirmation Responses from the Employment Verification Program
Our objective was to evaluate (1) SSA’s field office workload associated with nonconfirmation responses generated from
the Employment Verification (E-Verify) program; and (2) the Agency’s reimbursement process for E-Verify.
E-Verify is a joint initiative between SSA and DHS that assists employers in verifying the employment eligibility of
newly hired employees. The Employment Verification SSA Tentative Nonconfirmation Automated Response (EV-
STAR) is a web-based system created by DHS for SSA staff to electronically communicate the status of an E-Verify
case to DHS and the employer.
SSA’s methodology for determining its FY 2008 E-Verify workload and the related reimbursement costs could be
improved because the current methodology captured workloads that did not relate to E-Verify. We found SSA received
about $159,000 for 4,125 visits and calls by individuals who were not responding to an SSA tentative nonconfirmation
(TNC) response; and received about $462,000 for 15,283 contacts where the purpose of the visits or calls could not be
determined. Additionally, for FYs 2005 and 2006, SSA did not pursue reimbursement for about $246,000 in system
costs associated with processing about 2.7 million E-Verify queries. Lastly, we found that SSA field office staff had used
EV-STAR to process only 14 percent of the E-Verify cases where individuals visited field offices.
We recommended SSA: (1) add E-Verify topic codes to its tracking systems so management information can be generated
to accurately track workloads associated with E-Verify; (2) continue to work with DHS to develop a process or system
that alerts field office staff to use EV-STAR; (3) send reminders to field office staff to use EV-STAR when processing
SSA TNC cases; and (4) evaluate field office staff training needs for EV-STAR and provide training as appropriate.
SSA disagreed with recommendation 1; however, the Agency provided an alternate approach using an E-Verify alert
that meets the intent of our recommendation. Therefore, we encourage SSA to move forward with implementing this
new process.




12                                                                                     October 1, 2010 - March 31, 2011
                                                                                     Semiannual Report to Congress




Investigative Impact Initiatives
OI examines and investigates allegations of fraud, waste, abuse, and mismanagement in SSA programs and
operations. These allegations may involve benefit fraud, SSN misuse, violations by SSA employees, or fraud related
to grants and contracts. Our investigations often result in criminal or civil prosecutions or the imposition of CMPs
against offenders. These investigative efforts improve SSA program integrity by deterring those contemplating fraud
against SSA in the future. Our work in the areas of program fraud, enumeration fraud, SSN misuse, and employee
misconduct ensures the reliability of SSA programs and their future operations.




                                             Investigative Results

                                                                 10/1/10 - 3/31/11

                               Allegations Received                   49,323
                               Cases Opened                            3,482
                               Cases Closed                            3,358
                               Arrests                                  262
                               Indictments/Informations                 488
                               Criminal Convictions                     698
                               Civil/CMPs                                36




October 1, 2010 - March 31, 2011                                                                                 13
Semiannual Report to Congress




                                              Cases Opened by Program Category
                                               October 1, 2010 - March 31, 2011
                                                                 Other
                                                                 0.60%
                                    Employee-Related                                           Social Security Number (SSN)
                                         1.90%                                                            Misuse
                                                                                                           4.42%


                 Title XVI-Disability
                       39.09%



                                                                                                                          Title II-Disability
                                                                                                                               37.82%




                                                Title XVI-Aged                             Title II-Retirement (OASI)
                                                     3.85%                                            12.32%




                                               Cases Closed by Program Category
                                               October 1, 2010 - March 31, 2011




                                                                         Other        Social Security Number (SSN)
                                           Employee-Related
                                                                         0.83%                   Misuse
                                                2.06%
                                                                                                  6.16%




                Title XVI-Disability
                      39.28%




                                                                                                                        Title II-Disability
                                                                                                                             37.28%




                                               Title XVI-Aged
                                                    3.37%                    Title II-Retirement (OASI)
                                                                                        11.02%




14                                                                                                                 October 1, 2010 - March 31, 2011
                                                                                                    Semiannual Report to Congress




                                          Allegations Received by Source

                                                                           10/1/10 - 3/31/11

                                 SSA Employees                                   16,855
                                 Private Citizens                                15,825
                                 Anonymous                                       13,246
                                 Law Enforcement1                                 1,741
                                 Beneficiaries                                    1,117
                                 Public Agencies                                   526
                                 Other                                              13
                                 TOTAL                                           49,323




                                       Allegations Received by Category2

                                                                           10/1/10 - 3/31/11

                                 Disability Insurance                            21,472
                                 SSI Disability                                  12,571
                                 SSN Misuse                                       6,898
                                 Old-Age and Survivors Insurance                  3,803
                                 Other                                            2,815
                                 Employee-Related                                 1,182
                                 SSI Aged                                          582
                                 TOTAL                                           49,323

                   1 Effective FY 2011, OIG has excluded allegations related to the Fugitive Enforcement Program
                   from our allegation count.
                   2 See footnote 1.




October 1, 2010 - March 31, 2011                                                                                              15
Semiannual Report to Congress




SSA Fraud: Michigan Man Uses Second Identity             SSN Misuse: Family of Five Fraudulently Receives
to Defraud SSA                                           Survivors’ Benefits
Acting on information provided by an orthodontist’s      A liquor license application resulted in an
office, our Detroit office investigated an 84-year-      investigation conducted by our Greensboro, North
old Michigan resident and Title II retirement            Carolina office. The license applicant used two
beneficiary. The orthodontist’s office reported that     SSNs, one of which contained death information.
the man provided identifiers for his second identity     The investigation revealed that the man’s five family
when receiving treatment. Our investigation revealed     members fraudulently received Title II survivor’s
that the man used his true name to apply for Title       benefits based on the SSN containing the death
II disability and retirement benefits, while working     information. The fraudulent entitlement to the
under a false identity. He was overpaid $194,146,        survivors’ benefits, which started in 2001, resulted
a combined total from overpayments under both            in an incorrect payment to the family of over $98,000.
identities.
                                                         In December 2010, after the man pled guilty
The man pled guilty to theft of government funds.        to theft of money from the United States, a U.S.
In November 2010, a U.S. District Court judge            District Court judge sentenced him to 12 months of
sentenced the man to one day of incarceration, and       incarceration, and three years’ probation and ordered
ordered restitution of $194,146 to SSA. Agents in our    restitution of $98,355 to SSA.
Detroit office seized cash and assets of approximately
$173,800, which the man signed over as part of the
restitution order.                                       SSN Misuse: Discovery of Passport Fraud Leads
                                                         to $163,000 in Restitution to SSA
                                                         Acting on a request for assistance from the Department
SSA Fraud: Passport Fraud Leads to Uncovering
                                                         of State, our San Diego office investigated a Mexican
$115,000 in SSA Fraud
                                                         national, without legal status in the United States,
In a joint investigation conducted with Immigration      for using a false identity to obtain Federal and State
and Customs Enforcement (ICE) and the                    benefits. According to the State Department, two
Department of State, agents in our Philadelphia          individuals had applied for U.S. passports using the
office investigated a man who used a fraudulent          same birth record, but two unique Social Security
identity to receive Title II and Title XVI disability    numbers. Our investigation revealed that the
benefits totaling over $115,000.                         Mexican national had assumed the identity of a U.S.
                                                         citizen and received Title II disability and retirement
The man pled guilty to passport fraud, aggravated
                                                         benefits, as well as Title XVI aged benefits, totaling
identity theft, and conversion of government funds.
                                                         $163,948.
In February 2011, a U.S. District Court judge
sentenced the man to 36 months’ incarceration and        In November 2010, after the man pled guilty to theft
three years’ probation, and ordered restitution of       of government funds, false statement in application
$115,751 to SSA.                                         for a U S. passport, and criminal forfeiture, a U.S.
                                                         District Court judge sentenced him to eight months’
                                                         imprisonment and three years of probation, and
                                                         ordered restitution of $207,548 ($163,948 to SSA,
                                                         $32,000 to Medicare, and $11,600 to the California
                                                         Department of Healthcare Services).



16                                                                           October 1, 2010 - March 31, 2011
                                                                                  Semiannual Report to Congress




SSN Misuse: Illinois Woman Uses Second                    SSN Misuse: Stepmother Uses Multiple SSNs to
Identity to Defraud SSA of over $91,000                   Receive Federal and State Benefits
Using multiple identities, an Illinois woman collected    Agents in our Seattle office investigated a woman
Title II retirement benefits under one SSN, while         who fraudulently received SSI payments and public
collecting Title II widow’s benefits under another        assistance from several states, using the identity of her
SSN. The investigation, conducted by our Chicago          deceased stepdaughter, who was a Canadian resident.
office, revealed her scheme to receive over $91,000
in benefits for which she was not eligible.               The woman collected SSI as well as state benefits
                                                          under her true identity and used her stepdaughter’s
The woman pled guilty to wire fraud. In February          identity to collect SSI and public assistance from
2011, a U.S. District Court judge sentenced her           North Dakota, Alaska, and California.
to three years’ probation and ordered restitution of
$91,173 to SSA.                                           The woman pled guilty to aggravated identity theft
                                                          and theft of government funds. A U.S. District Court
                                                          judge sentenced her to four years’ incarceration and
SSN Misuse: Voter’s Registration Leads to Fraud           three years’ supervised release, and ordered restitution
Investigation                                             of $79,496 to SSA and $15,814 to the Washington
                                                          State Department of Social Services.
Based on information provided by the Oregon
Department of Justice, our Salem office investigated
a man alleged to have used deceased family members’       Employee Fraud: Former SSA Employee
information to vote. Our investigation revealed that      Convicted of Accepting Bribes
the man, a Title II retirement beneficiary, assumed his
brother’s identity and acquired a voter’s registration    Based on a referral from SSA’s Center for Security and
card, Oregon Driver’s License, and replacement SSN        Integrity, New York Region, our Iselin, New Jersey
card; and he applied for Title XVI aged benefits,         office investigated an SSA contact representative
Medicare, and Food Stamps. He fraudulently                for accepting bribes in connection with her official
received more than $87,700 in SSI payments from           duties.
SSA and more than $51,300 in benefits from the
                                                          The SSA employee used the SSA mainframe
State of Oregon using his deceased brother’s identity.
                                                          computer database to access records of another SSA
The man pled guilty to theft of government funds and      employee, as well as the accounts of her friends and
false information to obtain a Social Security card. In    family.
November 2010, a U.S. District Court judge sentenced
                                                          Our agents received information from the United
him to 12 months’ incarceration and three years’
                                                          States Postal Inspection Service regarding an
supervised release, and ordered restitution of $87,734
                                                          identity theft suspect in possession of three SSA
to SSA and $51,327 to the Oregon Department of
                                                          records printouts. The investigation revealed that the
Human Services. After the indictment, he also pled
                                                          employee had shared the three records with a third
guilty to the voter registration charges.
                                                          party. In addition, the employee verified personal
                                                          identification information for the third party in
                                                          exchange for cash, groceries, medical supplies, and
                                                          a car. The third party used the SSA information
                                                          to open bank accounts and credit cards, at various
                                                          financial institutions. Charges filed against the third
                                                          party include conspiracy and misuse of an SSN.


October 1, 2010 - March 31, 2011                                                                                17
Semiannual Report to Congress




The SSA employee pled guilty to accepting bribes          Employee Fraud: Former SSA Employee
in connection with official duties. In October            Convicted of Identity Theft and Tax Fraud
2010, a U.S. District Court judge sentenced the
SSA employee to four months’ incarceration, four          Based on a referral by a tax preparation company,
months’ home confinement, and two years’ supervised       our Little Rock office investigated an SSA employee
probation. Judicial proceedings continue against the      who worked part-time as a tax return preparer from
third party.                                              2005 through 2009. From January 2007 through June
                                                          2008, the employee accessed SSA systems to retrieve
The SSA employee retired from SSA in September            SSNs, and fraudulently used those SSNs as part of a
2008.                                                     tax fraud scheme.
                                                          The employee pled guilty to aiding and assisting
Employee Fraud: Former SSA Employee                       in the preparation of false tax returns, aggravated
Convicted of Stealing Beneficiary Funds                   identity theft, and misuse of an SSN. In November
                                                          2010, a U.S. District Court judge sentenced the SSA
Based on a referral from SSA’s Center for Security and    employee to 42 months of incarceration and three
Integrity, Philadelphia Region, our Baltimore office      years of supervised probation, and ordered restitution
conducted an investigation of an SSA teleservice          of $85,507 to the IRS.
center representative who accessed and modified the
SSA database without authorization.                       The SSA employee resigned in September 2009, after
                                                          being notified of the allegation.
Our investigation found evidence that the employee
changed the direct deposit account information
of two separate beneficiaries to her own. The first
beneficiary’s payment was suspended prior to the
deposit of the funds, due to the death of the claimant.
The second beneficiary’s payment was electronically
deposited to the employee’s bank account.
The SSA employee resigned in May 2009, after being
notified of the allegation.
In November 2010, she pled guilty to theft over
$500 and was sentenced to two years’ incarceration
(suspended) and two years’ supervised probation, and
ordered to pay restitution of $1,827 to SSA.




18                                                                            October 1, 2010 - March 31, 2011
                                                                                      Semiannual Report to Congress




Threats and Assaults Against SSA Employees
Employee safety is of paramount concern to SSA and OIG. Social Security employees must exercise extreme caution as
the number of Americans who depend on government services increases during times of economic challenge.
The OIG shares responsibility for investigating reports of threats of force or use of force against Agency employees
with the DHS’s Federal Protective Service (FPS), which has jurisdiction over physical property owned or leased by
the Federal Government, and with local law enforcement if the activity occurs off federally owned or leased property.
During the reporting period, we received 619 allegations nationwide related to employee safety issues, of which
150 involved assault or harassment, and 469 were associated with threats against SSA employees or buildings. We
opened 34 cases and closed 10 cases nationwide related to employee safety.
The following case summaries highlight significant investigations we conducted during this reporting period in
which SSA employees were threatened by members of the public.




Man Makes Bomb Threat Against SSA Office                       Man Authors Sixteen Threatening Letters to SSA
                                                               Employee
Acting on a referral from the Miami (Little River),
Florida SSA office, our Ft. Lauderdale office                  Our Baton Rouge office investigated a man who
investigated a man who made a bomb threat. When                composed 16 threatening letters, five of which
the man came to the office to check on the status of           contained sexually graphic threats of bodily injury
his SSI application, an SSA employee confronted the            and death, to a New Iberia, Louisiana SSA employee.
man regarding a smell emanating from his backpack.             Our investigation determined that the man attempted
The man stated that he had a bomb, and that he was             to disguise his handwriting, and implicated two
going to “blow the building up,” and then fled the             unwitting SSI recipients with whom he had a grudge,
office. Following the incident, our agents, along with         as the authors of the letters. The man composed an
the FPS and the Federal Bureau of Investigation,               “apology” letter to SSA that appeared to be from one
arrested the man without incident.                             of the SSI recipients; however, a forensic laboratory
                                                               confirmed the man we identified was the true author.
In November 2010, after a jury found the man guilty
of false information and hoaxes, a U.S. District Court         The man pled guilty to mailing threatening
judge sentenced him to 27 months’ incarceration and            communications. In December 2010, a U.S. District
24 months’ supervised release.                                 Court judge sentenced the man to five years’
                                                               incarceration and three years’ supervised release.




October 1, 2010 - March 31, 2011                                                                                  19
Semiannual Report to Congress




SSA Benefit Applicant Threatens to Kill SSA
Employee
Our Las Vegas office investigated a woman who
threatened to kill an SSA employee, if her previously
denied benefit application was not approved. After
the denial of her benefits, the woman submitted a
written request for an appeals hearing, via the U.S.
mail, that contained the threat directed against an
SSA employee.
The woman pled guilty to mailing threatening
communications. In February 2011, a U.S. District
Court judge sentenced the woman to 6 months’
home confinement with electronic monitoring and
five years’ probation.



Fugitive Enforcement Program
The OIG’s Fugitive Enforcement Program identifies individuals reported to have outstanding felony arrest warrants
and outstanding warrants for parole and probation violations. SSA shares its location information for wanted felons
with local law enforcement agencies to assist in their apprehension efforts. In turn, these agencies advise SSA on
the disposition of the warrant so that appropriate administrative action on the benefits may be taken.
Our data-sharing efforts with law enforcement agencies contributed to the arrest of 1,109 subjects during the
reporting period, and more than 95,000 arrests since the program’s inception in 1996. The following are some
examples of fugitive enforcement activities during the past six months:
• OIG agents and members of the Texas Attorney General’s Office, Fugitive Squad and the Little River County,
Arkansas Sheriff ’s Department in Ashtown, Arkansas arrested an SSA beneficiary who was a convicted sex offender
wanted on a warrant dated June 2010 for violating the conditions of his parole.
• OIG agents and members of U.S. Marshals Service, Southeast Regional Fugitive Task Force in Atlanta, Georgia
arrested an SSA beneficiary wanted on an outstanding warrant dated May 27, 2010. The subject was arrested for
Robbery. The warrant was issued by the New York City Police Department.
• OIG agents and members of the Los Angeles Police Department, U.S. Marshals Fugitive Task Force in Los
Angeles, California arrested an SSA beneficiary wanted on an outstanding warrant dated September 8, 2010. The
subject was arrested for Assault with a Firearm and Criminal Threats. The warrant was issued by the Los Angeles
Police Department.
• OIG agents and members of the U.S. Marshals Service, Capital Area Regional Fugitive Task Force in Richmond,
Virginia arrested an SSA beneficiary on an outstanding warrant dated May 10, 2010. The subject was arrested for
Prescriptions Obtained by Fraud and Forgery. The warrant was issued by the Richmond Police Department.




20                                                                                October 1, 2010 - March 31, 2011
                                                                                    Semiannual Report to Congress




In an effort to improve efficiency, the OIG has implemented new scanning software that uploads the fugitive
enforcement information received from law enforcement about the disposition of the felony warrant. The scanning
software uses both Optical Character Recognition and Intelligent Character Recognition to capture both
computer-generated and handwritten data on the fugitive enforcement form. The software scans and translates
the pertinent data, which is indexed into a text file and uploaded to the OIG database. The software also creates
an electronic copy of the fugitive enforcement form, which eliminates the need to file a hard copy. This new
automated process has allowed the OIG to significantly increase the hourly rate at which it processes the fugitive
enforcement forms.




October 1, 2010 - March 31, 2011                                                                               21
Semiannual Report to Congress




Legal Impact Initiatives
Section 1140 Enforcement
Section 1140 of the Act is a consumer protection tool against misleading advertising. Section 1140 prohibits, in
part, the use of SSA words and symbols in advertisements, solicitations, or other communications in a manner that
conveys the false impression that such item is approved, endorsed, or authorized by SSA, or that such person has
some connection with, or authorization from, SSA.
Communications running afoul of Section 1140 take many forms, such as deceptive paper-based mailers, misleading
attorney advertising, and misleading Internet solicitations, as well as the Internet-based sale of Social Security forms.
OCIG, using the authority delegated by the Commissioner and the Inspector General, aggressively enforces Section
1140. The statute provides for up to $5,000 in civil monetary penalties for each separate violation of the Act. The Act
also provides that a CMP of up to $25,000 may be imposed for each time a violative broadcast or telecast is viewed.
With the proliferation of social media and the Internet, there has been an increase in allegations of Section 1140
violations involving the operation of websites. In particular, there is a disturbing upward trend of allegations
concerning websites designed to appear as either the official SSA website or to have an affiliation with SSA for
the purpose of charging a fee for an otherwise free SSA Application for a Social Security card (“Form SS-5”). SSA
provides the Form SS-5 at no cost on its website, as well as at SSA field offices and other SSA-approved locations
throughout the nation. In addition to design schemes, website owners and operators often enter into advertising
agreements with web-hosting entities and Internet search engines to ensure that Internet searches for terms related
to obtaining a new or replacement Social Security card will result in potential customers being directed to the
imitation SSA website instead of SSA’s official website.
In response to the increase in Section 1140 allegations, OCIG has recently launched an aggressive offensive in the
form of a new action plan. The plan is designed to further proactive case development, to allow for more efficient
and effective handling of a larger volume of Section 1140 cases, and to deter future fraudulent activity by not only
enforcement, but also through educational outreach, especially targeted to the Internet industry. We are committed
to enforcing Section 1140 and expanding public awareness of these deceptive practices.




22                                                                                    October 1, 2010 - March 31, 2011
                                                                                       Semiannual Report to Congress




VALUE
The second goal of the OIG Strategic Plan is Value. All OIG initiatives strive to provide value to SSA, the
Congress, other key decision makers, and the public by delivering timely and reliable audit, investigative, and legal
products and services. To achieve the intended value, these products and services must effectively meet the needs
of all whom we serve while maximizing our available resources. To do this, we integrate best-practice strategies
and the newest technologies to increase our productivity and maximize our return on investment to the public.

Value Attained Through Audits
Many of our audits are focused on identifying SSA programmatic and operational areas where funds could be
put to better use. In addition, we often question approaches and their accompanying costs, and we recommend
alternatives to yield program and operational savings.
During this reporting period, our auditors issued 60 reports, identifying over $152.3 million in questioned costs
and about $27.6 million in Federal funds that could be put to better use. Some of our most notable audits are
summarized below.


Federal Employees Receiving Both Federal Employees’ Compensation Act and Disability Insurance Payments
Our objective was to determine the extent to which improper payments resulted when Federal employees received
both Social Security disability payments and Federal Employees’ Compensation Act (FECA) payments.
FECA provides workers’ compensation (WC) benefits to Federal employees injured while performing their duties.
The Act states, when a Disability Insurance (DI) beneficiary under age 65 also receives public disability benefits, SSA
may reduce the DI benefit. For SSI payments made under the Act, an individual whose income exceeds a certain
amount in a particular month is not eligible for SSI in that month.
Our review found that SSA made improper payments to DI and SSI recipients whose FECA compensation was not
recorded or accounted for in the calculation of their benefits. Based on our findings, we projected approximately $43
million in estimated overpayments to about 961 DI recipients for whom SSA did not consider FECA compensation
in the initial calculation of their benefits. Furthermore, we estimate approximately $603,140 in overpayments to about
80 SSI recipients whose FECA compensation was not initially accounted for in the calculation of their payments.
We recommended that SSA develop a computer matching agreement with the Department of Labor (DOL) to
identify possible DI and SSI claimants whose benefits do not reflect the FECA compensation they received. A
matching agreement will allow SSA to perform matching activities similar to what we performed in this review
and take appropriate action for recipients who have overpayments that result from SSA not taking into account
FECA compensation.
SSA agreed with our recommendation and is currently drafting a computer matching agreement for this purpose.
SSA also informed us it has determined that the legal authority to perform this computer match is included in
Sections 224(h)(1) and 1636(f ) of the Act, which requires Federal agencies to furnish SSA with information necessary
to verify eligibility for the DI and SSI programs.




October 1, 2010 - March 31, 2011                                                                                   23
Semiannual Report to Congress




Accuracy of Fiscal Year 2009 Title II Disability Insurance Benefit Payments Involving Workers’ Compensation
Offsets
Our objective was to determine whether SSA accurately offset Title II benefits for FY 2009 DI claims that involved
State WC benefits.
Since November 2006, when we examined a similar population of WC offset cases, SSA’s error rate decreased
from 17 percent to about 12 percent. Unfortunately, some payment errors continued to exist, in part because SSA
personnel misinterpreted or incorrectly applied the amount of WC data to the offset calculation. Specifically, 29
(11.6 percent) of the 250 DI claims we reviewed had payment errors. Of the 29 error cases, 15 had underpayments
totaling $60,663, and 14 had overpayments totaling $57,674.
From our population of DI claims in which a WC offset began, changed, or ended between October 1, 2008 and
June 30, 2009, we estimate that approximately 1,000 DI claims had underpayment errors totaling about $4 million,
and approximately 933 DI claims, had overpayment errors totaling about $3.8 million. These payment errors related
to the WC offset calculation. Additionally, 9 of the 29 claims had payment errors that would have continued after
June 2010. As such, we estimate that for the 12 months following our audit period, approximately 600 claims had
payment errors totaling about $2.1 million.
For 51 (20 percent) of the 250 claims, we did not locate independent proof of the WC benefits in SSA’s records
retention systems, as required. Therefore, we could not determine whether SSA offset these payments correctly.
We recommended that SSA implement a cost-effective, risk-based approach to identify error-prone WC offset cases
and require independent review before the offset decision is effectuated. SSA agreed with our recommendation.


Recovery of Title II Payments Issued After Beneficiaries’ Deaths
Our objective was to determine whether SSA took appropriate actions to recover payments issued after beneficiaries’
deaths.
Generally, any payments made after a beneficiary’s death are not subject to SSA’s normal overpayment recovery
procedures. Instead, the recovery of these payments is the responsibility of the Department of the Treasury (Treasury).
The Treasury recovers these payments from financial institutions through a process called reclamation. SSA must
coordinate the recovery efforts with the Treasury as well as make attempts to recover outstanding payments that
are outside the Treasury’s jurisdiction.
SSA needs to improve its controls and procedures to ensure that appropriate and timely actions are taken to recover
payments issued after beneficiaries’ deaths. Based on a random sample of 200 beneficiaries, we estimate about:
•$18.8 million in payments after death was not recovered or properly resolved for approximately 25,940 deceased
beneficiaries; and,
•$34.8 million in payments after death that had been recovered or properly resolved needed to be removed as
overpayments from SSA’s records for approximately 17,520 deceased beneficiaries.
We recommended that SSA (1) take corrective action for the 68 errors identified by our audit; (2) determine whether
it should review the population of 6,486 deceased beneficiaries with payments after death; (3) remind employees to
take appropriate actions to (a) initiate reclamation requests timely, (b) resolve periodic alerts, (c) recover payments
after death from liable financial institutions/individuals, and (d) identify underpayments; and (4) revise, where
needed, the frequency of periodic alerts. SSA agreed with all of our recommendations.

24                                                                                   October 1, 2010 - March 31, 2011
                                                                                      Semiannual Report to Congress




Implementation of Phase I of the Martinez Settlement Agreement
Our objective was to assess SSA’s implementation of Phase I of the Martinez settlement agreement.
The Martinez class action lawsuit challenged SSA’s fugitive felon policy of basing payment suspensions solely on the
existence of an outstanding felony arrest warrant, rather than developing information to ensure that the individual
was “fleeing.” As a result, the parties reached a settlement in September 2009 in which SSA changed its policy to
suspend OASDI benefits and deny SSI payments only if the outstanding felony warrant for the individual was
issued for escape or flight to avoid prosecution, confinement, etc.
SSA is fulfilling the terms of the settlement agreement in four phases.
Despite the complexities of Martinez cases, SSA provided appropriate settlement relief to about 91 percent of
the Phase I class members. Specifically, based on our sample, we estimate SSA provided settlement relief totaling
approximately $321.6 million in Phase I of the Martinez Settlement implementation. SSA appropriately provided
relief to about 27,524 (91 percent) OASDI class members. However, approximately:
•1,864 (6 percent) received about $14.3 million more settlement relief than was due; and,
•768 (3 percent) did not receive about $828,600 in settlement relief that was due.
Overall, about 2,632 individuals did not receive the accurate amount of settlement relief due them. The net result
was that SSA provided about $13.5 million more in settlement relief than was due.
We recommended SSA (1) review and update its policies and procedures, where necessary, to ensure settlement
relief is properly paid; and (2) correct the cases in the population that were incorrectly paid settlement relief. SSA
agreed with the recommendations.




October 1, 2010 - March 31, 2011                                                                                   25
Semiannual Report to Congress




Value Attained Through Investigations
During this reporting period, the efforts of our investigators yielded significant results arising from the successful
prosecution of cases that we developed. Our investigators achieved over $187 million in monetary accomplishments,
with over $36 million in SSA recoveries, restitution, fines, and settlements/judgments; and over $150 million in
projected savings from investigations resulting in the suspension or termination of benefits.
The following table represents the efforts of our personnel nationwide to recover SSA funds paid in fraudulent
benefits or through other illegal actions.


                                                SSA Funds Reported

                                                                   10/1/10 - 3/31/11

                                  Recoveries                           $19,737,838
                                  Fines                                    $396,187
                                  Settlements/Judgments                    $684,151
                                  Restitution                          $15,444,370
                                  Estimated Savings                   $150,962,739
                                  TOTAL                               $187,225,285

The following case summaries are indicative of the more than 3,300 investigations that we closed during this
reporting period. The cases we have highlighted illustrate the many instances where our investigative efforts have
resulted in a significant return on investment.

Disability Program Fraud: Man Uses his Son’s                    Disability Program Fraud: Man Falsifies
Identity to Conceal Work from SSA                               Documents to Obtain Disability Benefits
Based upon a project conducted by our Strategic                 Our Batavia, New York office conducted a joint
Research and Analysis Division to identify Title II             investigation with the Department of Veterans Affairs
disability beneficiaries concealing their work activity,        (VA), OIG, of a man who provided falsified documents
our Atlanta office investigated a man who used his              to SSA and VA in support of his application for Title
son’s SSN to work as an engineer for a broadcasting             II disability benefits, as well as additional VA benefits.
company. Our investigation confirmed that the man,              The investigation determined that the man produced
a Title II disability beneficiary, concealed his work and       fictitious letters in the names of several health care
earnings from SSA by using his son’s SSN.                       providers, in order to obtain SSA disability benefits
                                                                from December 2005 through December 2008.
The man pled guilty to wire fraud. In Janurary 2011,
a U.S. District Court judge sentenced the man to six            The man pled guilty to Social Security fraud and false
months’ home confinement and three years’ probation,            statements. In October 2010, a U.S. District Court
and ordered restitution of $123,103 to SSA.                     judge sentenced the man to five years’ probation, and
                                                                ordered restitution of $56,513 to SSA.



26                                                                                     October 1, 2010 - March 31, 2011
                                                                                   Semiannual Report to Congress




Disability Program Fraud: Disabled Married                 Disability Program Fraud: Man Obtains
Couple, Along with Man’s Ex-Wife, Conspire to              Deceased Mother’s SSA Benefits for over 10 Years
Obtain Federal and State Benefits
                                                           Our Chicago office investigated a man who concealed
Our Seattle CDI Unit investigated three Washington         his mother’s death in 2000 from SSA, in order to
State residents who conspired to receive Federal and       receive her Title II widow’s benefits. Our investigation
State benefits. Two of the subjects, a married couple      revealed that the man forged his mother’s signature
both receiving Title II disability benefits, conspired     and set up a bank account, to which he caused her
to conceal their three active businesses from SSA. The     widow’s benefits to be directly deposited, in order to
man and his wife operated an auto repair business          steal the benefits for himself. Additionally, the man
out of their residence, as well as an inflatable toy and   caused SSA to pay out monthly Medicare premiums.
carnival company and a household goods shipping
company. The man also conspired with his ex-wife to        The man pled guilty to theft of government funds. In
obtain benefits from the state of Washington to pay        February 2011, a U.S. District Court judge sentenced
for the full-time care of his current wife.                the man to 18 months’ incarceration and three
                                                           years’ supervised release, and ordered restitution of
In November 2010, after the man pled guilty to             $207,995 to SSA.
Social Security fraud and conspiracy to commit
theft, a U.S. District Court judge sentenced him to 14
months’ incarceration, four months’ electronic home        Disability Program Fraud: Man Assumes Identity
monitoring, and three years’ supervised release; and       and SSN of a Deceased Individual to Obtain U.S.
ordered restitution of $67,350 to SSA and $129,791         Documents and Disability Benefits
to the state of Washington.                                Acting on a referral from the U. S. Department of
In January 2011, after his ex-wife pled guilty to the      State Diplomatic Security Service, our El Paso office
same charges, a U.S. District Court judge sentenced        investigated a man who assumed the identity and SSN
her to 60 days’ incarceration, followed by six months’     of a deceased individual, resulting in the fraudulent
electronic home monitoring and three years’                receipt of a U.S. passport and Texas identification card.
supervised release, and ordered restitution of $26,224     The investigation confirmed the man obtained Title
to SSA and $108,686 to the state of Washington.            II disability benefits by using the deceased’s identity.
                                                           He also received Title II child auxiliary benefits for
In February 2011, after his ex-wife pled guilty to theft   his two children.
of government funds, a U.S. District Court judge
sentenced her to 30 days’ incarceration, followed by       The man pled guilty to theft of public money and
four months’ electronic home monitoring and three          aggravated identity theft. In October 2010, a U.S.
years’ supervised release, and ordered restitution of      District Court judge sentenced the man to 24 months’
$45,914 to the state of Washington.                        incarceration and three years’ supervised release, and
                                                           ordered restitution of $142,462 to SSA.




October 1, 2010 - March 31, 2011                                                                                 27
Semiannual Report to Congress




Disability Program Fraud: Man Assumes Identity             Disability Program Fraud: Woman Conceals Living
for U.S. Citizenship and SSA Benefits                      Arrangement to Receive Benefits
Our Philadelphia office investigated a Dominican man       Acting on a referral from the Savannah, Georgia SSA
who used the identity of a Puerto Rican man to obtain      office, our Jacksonville, Florida office investigated a
U.S. citizenship and a U.S. passport. The investigation    woman who concealed her true living arrangement
disclosed that once the man assumed this identity, he      from SSA in order to receive SSI. The investigation
fraudulently applied for and received Title II and Title   determined that from August 2004 through July 2009,
XVI disability benefits.                                   the woman lived with her husband on a permanent
                                                           basis in Georgia; however, she did not report this
The man pled guilty to passport fraud, conversion of
                                                           information to SSA. As a result of our investigation,
government funds and aggravated identity theft. In
                                                           SSA determined the woman was not eligible for SSI,
February 2011, a U.S. District Court judge sentenced
                                                           due to her husband’s receipt of SSA benefits.
the man to 36 months’ incarceration and three years’
supervised release, and ordered restitution of $115,751    In December 2010, after the woman pled guilty to
to SSA.                                                    false statements, a U.S. District Court judge sentenced
                                                           her to three years’ probation with six months’ electronic
Disability Program Fraud: Man Conceals                     monitoring, and ordered restitution of $36,842 to SSA.
Ownership of Timber Business
Acting on information provided by the New York             Representative Payee Fraud: Executive Director
State Environmental Conservation Police, our               Pleads Guilty to Theft of Public Money
Albany office investigated a man who concealed
his ownership and operation of a timber business in        Our Cleveland office investigated the executive
order to continue his SSI payments. The investigation      director of an organizational representative payee
revealed the man defrauded landowners out of more          (ORP), who embezzled monies from a collective
than $70,000. The man also concealed his subsequent        account maintained for multiple beneficiaries. This
incarceration, enabling him to continue receiving          investigation was the result of a triennial audit of
                                                           the ORP, which determined that the man charged
SSI.
                                                           additional fees and withdrew personal credit
The man pled guilty to theft of government funds.          card payments from the collective account. Our
In November 2010, a U.S. District Court judge              investigation determined that from January 2007
sentenced the man to 18 months’ incarceration, and         through October 2009, the man embezzled $129,698
ordered restitution of $18,609 to SSA.                     from the account.
                                                           The man pled guilty to theft of public money. In
                                                           November 2010, the man was sentenced to 21
                                                           months’ incarceration and three years’ supervised
                                                           probation. He was also assessed a fine of $800, and
                                                           ordered to pay restitution of $129,698 to SSA.




28                                                                              October 1, 2010 - March 31, 2011
                                                                                 Semiannual Report to Congress




Representative Payee Fraud: Las Vegas Mother             Deceased Payee Project: Tennessee Man Steals
Steals Child’s Benefits                                  Money from His Deceased Mother’s Bank Account
Our Las Vegas, Nevada office investigated a woman        Our Nashville office conducted this investigation as
who served as representative payee for her son’s         part of the national Deceased Payee Project (BIC-
SSI. The investigation determined that the woman         D), which identifies widows and widowers of Title II
concealed the true living arrangement of her son in      beneficiaries whose benefits continued to be paid after
order to receive his benefits. From May 2005 through     their death. The investigation revealed that a man’s
September 2009, the woman fraudulently received          mother died on February 12, 2004, and he continued
her son’s SSI payments, while he resided with his        to receive her Title II widow’s benefits after her death.
grandparents in Texas.                                   SSA terminated the benefits and determined that the
                                                         son received $69,796 of his mother’s benefits to which
The woman pled guilty to theft. In December 2010, a      he was not entitled.	
U.S. District Court judge sentenced the woman to a
period of 14 to 40 months’ incarceration (suspended)     In December 2010, after the man pled guilty to theft
and five years’ probation, and ordered restitution of    of government funds, a U.S. District Court judge
$23,255 to SSA.                                          sentenced him to one year of probation. Prior to
                                                         sentencing, he made full restitution of $69,796 to SSA.

Representative Payee Fraud: SSI Recipient Goes to
Prison for Stealing Her Son’s Benefits                   Deceased Payee Project: Cleveland Man Guilty of
                                                         Theft of Government Funds
Acting on a referral from the Roanoke, Virginia
                                                         Our Cleveland office conducted this investigation as
SSA office, our Richmond office investigated an
                                                         part of the BIC-D Project. The investigation revealed
SSI recipient who also served as representative payee
                                                         that the man did not report his uncle’s death in June
for her son’s SSI. The woman failed to report the
                                                         2005, and from June 2005 through October 2008,
true living arrangements of her son. From February
                                                         withdrew $39,081 of his deceased uncle’s Title II
2000 through August 2009, the woman fraudulently
                                                         widower’s benefits.
received benefits on behalf of her son to which she
was not entitled.                                        The man pled guilty to theft of government funds. In
                                                         December 2010, a U.S. District Court judge sentence
The woman pled guilty to theft of government
                                                         him to five years’ probation, and ordered restitution
monies and false statements related to health
                                                         of $39,081 to SSA.
care matters. In November 2010, a U.S. District
Court judge sentenced the woman to 24 months’
incarceration,and three years’ supervised release, and
ordered restitution of $20,229 to SSA and $168,551
to the Virginia Department of Medical Assistance
Services.




October 1, 2010 - March 31, 2011                                                                               29
Semiannual Report to Congress




Deceased Payee Project: Arizona Man                      Deceased Payee Project: New Jersey Woman
Accessed Funds Paid to His Deceased Mother               Withdraws Deceased Mother’s Widow’s Benefits
Our Phoenix office conducted this investigation as       Our Iselin, New Jersey office initiated this
part of the BIC-D Project. The investigation revealed    investigation based on information provided as part
that a man failed to notify SSA that his mother died     of the BIC-D Project. The referral alleged a Title
on January 6, 2004. From January 2004 through            II widow’s beneficiary died in September of 2004;
December 2007, the deceased’s son accessed funds in      however, SSA sent benefits via direct deposit after her
the joint checking account for his own personal use.     death. The investigation disclosed that the deceased’s
                                                         daughter withdrew the benefits for her own personal
The man pled guilty to theft. In January 2011, a
                                                         gain.
Commissioner for the Superior Court of Arizona
sentenced him to 10 months’ imprisonment and             The daughter pled guilty to theft of government
three years’ probation, and ordered restitution of       funds. In October 2010, a U.S. District Court judge
$35,749 to SSA.                                          sentenced her to one year of probation, and ordered
                                                         restitution of $27,084 to SSA.

Deceased Payee Project: Son Misappropriates
Mother’s SSA Benefits After Her Death
Our Cleveland office conducted this investigation as
part of the BIC-D Project. The investigation revealed
that SSA paid benefits to a deceased beneficiary after
her death on October 25, 2005. From October 2005
through July 2008, the deceased’s son converted the
SSA funds for his own use.
The man pled guilty to embezzlement of public
money. In February 2011, a U.S. District Court judge
sentenced him to three years’ probation, and ordered
restitution of $35,267 to SSA.




30                                                                           October 1, 2010 - March 31, 2011
                                                                                      Semiannual Report to Congress




Cooperative Disability Investigations Program
Our CDI Program continues to be one of our most successful initiatives, contributing to the integrity of SSA’s
disability programs. CDI is a joint effort of the OIG, SSA, Disability Determination Services (DDS) and State
and local law enforcement personnel. Established in 1998 with units in just five states, our CDI program now has
22 Units in 19 States. The Units work to obtain sufficient evidence to identify and resolve issues of fraud and abuse
related to initial and continuing disability claims.
The following CDI case summaries highlight major investigations we conducted during this reporting period that
enhanced SSA program integrity and the reliability of SSA’s operations.




Former New York Police Officer Fakes Shoulder                  South Carolina Carpenter Feigns Illiteracy
Injury
                                                               The Columbia, South Carolina CDI Unit investigated
The New York CDI Unit investigated a 49-year-old               a 41-year-old man who applied for Title II and Title
former New York City police officer who applied                XVI disability benefits based on mental retardation,
for Title II disability benefits based on a shoulder           illiteracy, and depression. The man obtained the
injury and anxiety. The man reported that he had               lowest possible score on all IQ subtests. The man
trouble with his daily personal hygiene regimen, as            reported that he retired from the U.S. Navy in 2006.
well as other daily activities, and claimed that he            This case was referred by the South Carolina DDS
experienced panic attacks while climbing stairs and            due to suspected malingering.
driving a vehicle. The New York DDS referred this
case due to inconsistencies in the claimant’s reporting        Our investigators discovered that the applicant
and the lack of available medical evidence.                    attended a technical school and received a certificate
                                                               of carpentry. In addition, the investigation revealed
During the investigation, CDI Unit personnel                   that the man has a current driver’s license and a work
observed the man traveling alone, driving a minivan,           history with earnings that would make him ineligible
shopping at various locations while pushing a cart,            for SSI. The South Carolina DDS denied the man’s
and placing his purchases into the rear cargo area of          application for Title II and Title XVI benefits.
his vehicle. As a result, the man’s application for Title
II benefits was denied.




October 1, 2010 - March 31, 2011                                                                                  31
Semiannual Report to Congress




Virginia Man Embellishes Intellectual and                Oregon Man Operates Facility Despite Claimed
Memory Problems                                          Disability
Our Richmond CDI Unit investigated a 27-year-old         The Salem CDI Unit investigated a 62-year-old man
man who applied for SSI based on brain surgery,          who applied for Title II disability benefits based on
fractures of the arm and leg, and cognitive disorders.   Hepatitis C, chronic fatigue, back problems, and
The Richmond DDS referred this case after the            depression. The man previously applied for benefits
applicant exhibited signs of poor cooperation during     and received a denial based on his work activity. On
a consultative exam.                                     this application, the man reported that he was not
                                                         working. The Oregon DDS referred this case due
During the consultative exam, the doctor concluded       to information that the applicant was not credible.
that the applicant had exaggerated his intellectual
and memory problems, that there were inconsistent        During an interview, the applicant described how
reports of symptoms and the man showed a lack of         he remodeled a home and turned it into a facility
motivation.                                              for recovering drug addicts. He explained that the
                                                         residents compensate him for housing and counseling
Agents also interviewed the applicant’s probation        services, and that the recovery house is approaching
officer, who stated that he meets with the applicant     its occupancy capacity. The Oregon DDS denied the
and his sister every three months. During those          man’s application for Title II benefits.
meetings, the man was observed walking, standing,
and sitting without the use of any assistive devices
and without any difficulty. He was able to interact      Ohio Author Exaggerates Disabilities
socially in an appropriate manner and did not display
                                                         The Cleveland CDI Unit investigated a 40-year-old
any unusual behaviors or mannerisms. The man
                                                         man who applied for Title II and Title XVI disability
comprehended and responded to questions with no
                                                         benefits based on a learning disability. The applicant
difficulty, and his probation officer did not observe
                                                         exhibited difficulty comprehending questions during
any depression or cognitive impairment.
                                                         his initial interview with SSA. He reported that he
Furthermore, the man revealed that he cared for          stopped working in 2008; his wife assisted him with
his sister’s three children during the day, while she    personal grooming and hygiene; and that someone
worked. The Richmond DDS denied the man’s                must accompany him outside his residence. The Ohio
application for SSI.                                     DDS referred this case due to conflicts in the medical
                                                         evidence.
                                                         During a consultative examination, the applicant
                                                         behaved in a childish fashion, spinning around in
                                                         his chair and whistling, while his wife spoke on his
                                                         behalf.
                                                         The CDI investigation revealed that the man works
                                                         for a moving company. Furthermore, the man is
                                                         pursuing the publication of short stories he has
                                                         written. The Ohio DDS denied the man’s application
                                                         for concurrent disability benefits.




32                                                                           October 1, 2010 - March 31, 2011
                                                           Semiannual Report to Congress




Tennessee Man Exhibits Varied Behaviors at
Medical Appointments
Our Nashville, Tennessee CDI Unit investigated
a 47-year-old man who applied for SSI based on
complications from previous accidents and blackouts.
The man and his sister alleged that he is extremely
limited in his daily activities due to his impairments,
and that he is capable of doing little more than
sleeping all day. The Tennessee DDS referred this
case due to suspected malingering.
During a psychological consultative examination,
the man presented himself as severely impaired.
He laughed and smiled at inappropriate times,
and refused to leave after becoming agitated and
repeating phrases. At a physical exam two weeks
earlier, the man did not exhibit the same level of
mental difficulties. That examiner reported no
abnormal behaviors or mannerisms, and advised
the man’s cognitive function and intelligence were
appropriate for his educational level.
In an interview, the man stated that he has almost
completed the courses necessary to receive his
college degree, and that his injuries stem from a car
accident that occurred at age 14. The applicant’s sister
stated that he was not seeing a doctor for his mental
problems. During the interview, the man appeared
to move normally, did not display any unusual
mannerisms, limitations, or discomfort, appeared
calm and cooperative, maintained good eye contact,
and articulated his responses clearly.
The Tennessee DDS denied the man’s application
for SSI.




October 1, 2010 - March 31, 2011                                                     33
Semiannual Report to Congress




     The following table highlights the successes of the CDI program, which yielded more than $128 million
     in projected SSA program savings during this reporting period.
                             Cooperative Disability Investigations Program Results
                                                   October 1, 2010 - March 31, 2011
                                                 Allegations             Confirmed                    SSA                   Non-SSA
              State
                                                  Received               Fraud Cases                 Savings1               Savings2
              Arizona                                 163                       99                 8,607,571                4,567,080
              Arkansas                                 54                       25                 2,121,782                1,152,375
              California3                             384                      118                 7,621,913                6,527,740
              Colorado                                101                       59                 5,267,303                3,020,232
              Florida                                  87                       29                 2,430,157                1,401,616
              Georgia                                 167                      136                11,916,150                6,579,785
              Illinois                                 86                       52                 3,845,308                2,274,122
              Louisiana                               101                       48                 4,196,476                2,692,294
              Massachusetts                            86                       53                 4,628,259                3,278,917
              Missouri4                               155                       65                 5,222,183                3,377,503
              New Jersey                              121                       69                 4,736,825                3,046,725
              New York                                 72                       52                 4,562,356                3,452,614
              Ohio                                    295                      138                10,975,454                7,744,838
              Oregon                                  159                      108                 9,361,268                6,189,994
              South Carolina                           89                       77                 4,419,531                2,787,870
              Tennessee                                83                       39                 3,484,510                1,598,928
              Texas5                                  335                      236                20,512,981               12,963,288
              Virginia                                118                       77                 6,939,625                4,763,092
              Washington                              112                      104                 7,571,951                4,904,575
              TOTAL (10/1/10-3/31/11)                2,768                    1,584              $128,421,603             $82,323,588

 1
   SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations. When a CDI investigation
 supports the cessation of an in-pay case, SSA program savings are calculated using a formula that takes into account the average number of years that
 SSA has determined that a person remains on its rolls, as well as the total percentage of CDRs that resulted in a suspension, termination, or reduction in
 benefits due to CDI investigations.
 2
   Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation,
 using estimated or actual benefit amounts documented by the responsible agency.
 3
   California has two units, one in Los Angeles and the other in Oakland.
 4
   Missouri has two units, one in Kansas City and the other in St. Louis. The Kansas City unit was established on September 30, 2010.
 5 Texas has two units, one in Dallas, and the other in Houston.



34                                                                                                               October 1, 2010 - March 31, 2011
                                                                                     Semiannual Report to Congress




Value Attained Through Legal Initiatives
OCIG’s efforts to administer the portion of the CMP program that deals with violators of Section 1129 of the
Act, maximize resources available to us and create a positive return on investment. Section 1129 of the Act allows
for the imposition of a CMP against those who make false statements or representations in connection with
obtaining or retaining benefits or payments under Titles II, VIII, or XVI of the Act. In addition, CMPs may
be used to penalize representative payees for wrongful conversion of payments, and to penalize individuals who
knowingly withhold a material fact from SSA. After consultation with the DOJ, OCIG is authorized to impose
penalties of up to $5,000 for each false statement, representation, conversion, or omission. A person may also be
subject to an assessment, in lieu of damages, of up to twice the amount of any resulting overpayment. During
this reporting period, we reallocated resources from our Section 1129 program to expand our efforts against
Section 1140 perpetrators who have increasingly utilized the Internet to commit fraud against the public.
The following table and cases highlight the value achieved through our Section 1129 efforts for this reporting
period.




                                   Civil Monetary Penalty Activity Under
                                               Section 1129
                                                                      10/1/10 - 3/31/11

                         Cases Received                                      907
                         Cases Initiated                                      72
                         Cases Closed                                        751
                         Penalties and Assessments Imposed                $697,913
                         Number of Hearings Requested                         4




October 1, 2010 - March 31, 2011                                                                               35
Semiannual Report to Congress




Texas Antique Dealer Agrees to $32,000                    Louisiana Woman Concealed Marriage to
Settlement for Concealing Work Activity                   Continue Receiving Disabled Adult Child Benefits
Under the SSI program, SSA pays monthly benefits          A disabled adult child may receive Title II disability
to individuals with limited income and resources who      benefits until he or she marries. A Louisiana woman
are disabled, blind, or age 65 or older.                  began receiving Title II disability benefits as a
                                                          disabled adult child in 1993. Although the woman
A Texas man receiving SSI payments for numerous
                                                          agreed to promptly notify SSA if she married, in 1994
alleged physical and mental impairments actually
                                                          she married and failed to inform SSA. Because of her
owned and operated a thriving antique business.
                                                          failure to inform SSA of her marriage, she improperly
When initially confronted by OIG special agents
                                                          received over $47,000 in benefits. As a result, OCIG
with evidence of his work activity, the man insisted
                                                          assessed the woman a penalty of $36,500 and an
that the antique business belonged solely to his
                                                          assessment of $41,944 for a total of $78,444.
parents, and claimed that he did not work there –
apart from occasionally dusting some of the furniture.
However, the special agents discovered that the man       Louisiana Girl Falsified School Certification to
performed all of the activities necessary to set up       Continue Receiving Child’s Benefits
and operate the business. He not only worked in the       An individual may receive Title II benefits as a child
store full-time each day, but he bought and sold all      of a deceased beneficiary until the child turns 18,
the antiques for the store, picked up and delivered       unless he or she is still in high school or pursuing a
all the furniture he bought and sold, including heavy     General Educational Development (GED) degree,
bedroom and dining sets, and decided upon all the         in which case they may be extended for up to 14
prices for the merchandise he sold. He applied for        months.
a Texas business license, filed taxes for the business,
and applied for a loan for the business. On his 2006      A Louisiana girl began receiving Title II benefits
tax return, he reported that he drove his truck over      under this program in 1998. In November 2008,
25,000 miles for the business.                            she signed an SSA form falsely certifying that she
                                                          was still in school pursuing a GED and expected to
In a settlement agreement with OCIG, he agreed            graduate in May 2010. In fact, she had dropped out
to repay the overpayment of $14,536 plus a CMP            of the GED program in May 2008. The fraud was
of $17,464 for a total recovery of $32,000 for his        discovered after she applied for food stamps and a
numerous false statements to SSA regarding his work       state employee contacted the local SSA office to verify
activity.                                                 her assertion in her food stamp application that she
                                                          was not receiving any Social Security benefits. After
                                                          SSA discovered she had signed a form certifying to
                                                          SSA that she was still in school, but had informed
                                                          the state agency that she had dropped out in the
                                                          10th grade, SSA referred the case to OIG for further
                                                          investigation. Because of her false statement, she
                                                          improperly received $13,104 in SSA benefits. OCIG
                                                          negotiated a settlement agreement by which the girl,
                                                          now working as a waitress at a truck stop, will pay
                                                          back to SSA a penalty and assessment of $20,000.




36                                                                            October 1, 2010 - March 31, 2011
                                                                               Semiannual Report to Congress




Arizona Welder Assessed $64,947 for Failing to            Arizona Cake Decorator Conceals Return to Work
Report Work and Income While Receiving                    to Continue Receiving Disability Benefits
Disability Benefits
                                                          An Arizona woman, who had been receiving
SSA approved the application of an Arizona welder         disability since 2002, returned to work in a bakery
to receive disability benefits in 2001 for various        in 2004. In 2006, she and her husband opened and
injuries following an accident. In 2003, he returned      incorporated their own cake decorating business.
to work for over a year without advising SSA, which       Her failure to inform SSA of her return to work,
continued to pay him benefits.                            and her resulting income, caused SSA to pay her
SSA is currently collecting an overpayment for that       over $33,000 for which she was not eligible. OCIG
period in which he was working. In 2004, he was           assessed a penalty of $39,000 and an assessment of
again unable to work. However, while continuing to        $33,462, for a total of $72,462.
receive benefits, he returned to work as an ironworker
and field supervisor in 2007, and worked through
October 2008. His failure to report to SSA his return
to work caused him to receive almost $49,000 in
benefits to which he was not entitled.
After he returned to work a second time without
informing SSA, causing SSA to pay him additional
benefits for which he was not eligible, OCIG assessed
a penalty of $16,000 for 16 months of material
omissions, and an assessment in lieu of damages of
$48,947, for a total of $64,947.


Georgia Representative Payee Converts Child’s
Benefits to Her Own Use
Pursuant to negotiations with OCIG, a Georgia
woman agreed to pay a CMP of $10,000 and an
assessment of $17,982 for a total recovery of $27,982.
The woman, appointed by SSA to be her daughter’s
representative payee, signed and completed two
representative payee reports to SSA in which she
falsely stated that her daughter resided with her after
she knowingly lost custody of her. She also falsely
stated that she used all of her daughter’s benefits for
her care and support, when in fact, she had converted
all of the benefits to her own use.




October 1, 2010 - March 31, 2011                                                                          37
Semiannual Report to Congress




Louisiana Woman Improperly Receives $39,356 in           Musician Penalized for Spending Deceased
Supplemental Security Income Payments                    Father’s Benefits for Ten Months
Under the SSI program, SSA pays monthly benefits         A Los Angeles musician was listed on a joint bank
to individuals with limited income and resources who     account with his father, an SSA beneficiary. In
are disabled, blind, or age 65 or older.                 February 2007, after his father died, the son failed to
                                                         inform SSA of the death. Additionally, he continued
In determining an individual’s resources, SSA will
                                                         to withdraw and spend money from the joint bank
“deem” a portion of a spouse’s income and resources. A
                                                         account as SSA deposited the money into it.
Louisiana woman improperly received SSI payments
from November 2003 until June 2009, as she failed to     Though the son claimed he did not know where
report to SSA that during this time she was married      the money in the bank account came from, account
and living with her husband. SSA was alerted to her      records clearly showed the money deposited into
marriage when, in June 2009, she filed for widow’s       the account was SSA benefits. In addition, after the
benefits on her now-deceased husband’s record.           father died, SSA sent the father two letters regarding
                                                         his benefits to his home address, also the son’s address.
SSA referred the case to the OIG for further
investigation. After negotiations, OCIG and the          Because of his failure to advise SSA of his father’s
woman entered into an agreement whereby she              death, he improperly received $9,331. OCIG assessed
agreed to pay a CMP of $10,000 and an assessment         a CMP of $10,000 and an assessment in lieu of
of $39,356, for a total of $49,356.                      damages of $14,331, for a total of $24,331.



Illinois Woman Hides Work Activity as a Child
Care Provider While Receiving Title II Disability
An Illinois woman failed to notify SSA that she
performed work activity as a childcare provider while
receiving Title II benefits.
During an interview in June 2009 with an OIG
special agent and an SSA employee, she admitted
that she operated a day care center out of her home,
working 40 hours per week, and she had done so
since at least August 2004. Additionally, between
2004 and 2009, she had worked other jobs. She failed
to report any of these changes in work activity to
SSA.
Due to her failure to report these changes in her work
activity, she received at least $17,540 in DI benefits
for which she was not eligible. OCIG assessed a
pentalty of $62,000 and an assessment of $35,081,
for a total of $97,081.




38                                                                            October 1, 2010 - March 31, 2011
                                                                                     Semiannual Report to Congress




PEOPLE
The third goal of the OIG Strategic Plan is People. The collective effort of our employees continues to be the
driving force behind this organization’s success in meeting its mission. We provide an encouraging and rewarding
work experience with the goal of retaining these exceptional individuals. OIG leadership fosters an environment
where employees can realize their potential through training and developmental programs. OIG components
convene training sessions to inform their employees about new procedures at various levels of our organization.
In addition, the OIG Organizational Health Committee conducts an annual assessment of employee satisfaction
levels and addresses employee concerns.

Budget
During the first half of FY 2011, SSA OIG has been operating under a continuing resolution at the FY 2010
funding level of $102.6 million, which supports an estimated end-of year staffing level of 580. The salaries and
benefits of employees account for 87 percent of overall spending. The remaining 13 percent is used for necessary
expenses such as travel, training, communications, reimbursable work authorizations, and general procurements,
as well as to provide for basic infrastructure needs such as rent and interagency service agreements. The FY 2011
budget supports our efforts to meet and exceed the expectations set forth in the Strategic Plan for Fiscal Years
2011 – 2015. The goals and accomplishments measured in the Strategic Plan are also published in the Annual
Congressional Budget Justification.

Human Resource Planning and Management
We actively pursue and work to retain the best possible employees. First, our staffing plan forecasts employee
departures based on historical trends and human resource data, which allows us to establish optimal timeframes
for recruiting new employees. Moreover, OIG managers monitor staffing to ensure that vacant positions are filled
promptly, ensuring that OIG components have the ability to fulfill their respective missions.
Our human resource specialists and recruiters actively seek out and participate in national and virtual career fairs
in our ongoing effort to attract the best and brightest talent to OIG. Ongoing evaluation and updating of our
recruitment displays and brochures continue to enhance our outreach efforts. These events enable us to actively
recruit underrepresented groups in the labor market, enabling us to maintain a truly diverse workforce. OIG hired
seven employees during the first half of FY 2011. Of these seven, three individuals (42 percent of new hires) were
from minority groups. These efforts yielded increases in our minority population of Black males and Black females.
Once we identify the best candidates, we employ a structured interview process to fairly assess their skills and
qualifications. This process has been instrumental in predicting the future success of new employees. Additionally,
OIG launched its second Leadership Development Program in FY 2009 as an outreach of our succession planning
efforts. The 18-month career development program, which is nearing its end, provides participants with leadership
skills through various assignments, training and mentoring and ensures that OIG has a well-developed cadre of
highly qualified candidates for future leadership positions. Of the four program participants who began the program
in January 2010, one has already been promoted to a leadership position. The remaining participants continue
to build their leadership competencies through challenging program assignments. Our succession planning and
knowledge-transfer strategies focus on creating a culture to ensure smart recruitment, tailored internal training,
effective leadership transition efforts, and reciprocal developmental programs. In addition to participating with
agency developmental programs, OIG is working to expand current developmental programs to utilize knowledge
transfer practices, bridge knowledge gaps and drive innovation for organizational performance improvement.

October 1, 2010 - March 31, 2011                                                                                 39
Semiannual Report to Congress




Information Technology
During this reporting period, OIG IT specialists worked to further automate and streamline administrative and
business processes. We implemented a new Property Management System, which incorporates workflows and
approval chains to ensure that assets are assigned, tracked and archived in accordance with policy. We also developed
a process to streamline the reconciliation of travel, training and procurement transactions in our automated budget
system. We will continue to automate our existing business processes in an effort to decrease costs and increase
efficiency.
In an effort to expand Telework at SSA OIG, OTRM revised existing Telework Program policy to strengthen
definitions of eligibility, expand participation, and promote effectiveness of the program. During this reporting
period, OIG expanded its Telework participation by 200 percent, with plans for additional expansion by the end
of the year. This expansion was made possible by considerable progress in the area of secure remote connectivity by
our Information Technology Division. The virtual private network and virtual desktop technologies implemented
allow for a productive remote workforce without sacrificing the security of sensitive information. These steps align
OIG with the goals and requirements of the Telework Enhancements Act of 2010.
In support of the President’s goal to expand electronic services, we maintain an Internet website that is both
informative and useful to the public. A fraud reporting form is included on the site, which provides a secure and
confidential mechanism for members of the public to report fraud, waste, and abuse within SSA’s programs and
operations. A workgroup comprised of administrative specialists, attorneys, auditors, and investigative personnel
continually monitor the OIG website to ensure that information is accurate and up-to-date and to identify enhanced
capabilities and opportunities for improvement to the site.
Finally, our IT staff analyzes industry trends to find new technologies that may enhance our business processes.
During this reporting period, we have continued to expand the use of virtual technologies and have begun to
pilot virtual desktop infrastructure for both internal and remote use to reduce hardware and deployment costs and
enhance data security. We have also utilized virtualization to decrease the number of physical servers in use, which
has reduced power consumption and increased system up time. OIG IT Specialists continue to meet the challenge
of providing a variety of IT support services for more than 90 OIG offices throughout the country.




40                                                                                 October 1, 2010 - March 31, 2011
                                                                                    Semiannual Report to Congress




Outreach Efforts
We are always seeking new ways to reach out to the wider Federal community as well as to members of the public.
In a variety of venues, we share our mission of promoting integrity and excellence in Social Security programs and
operations. These occasions are important opportunities to exchange information and forge partnerships. They also
give us the chance to educate and inspire public confidence in Federal programs.
The following is an example of outreach conducted by OIG officials and personnel:
• In January 2011, an OIG Human Resources employee was named as the new Chairperson for the Headquarters
Advisory Council of Employees with Disabilities for 2011. In this capacity, the employee will assume the mantle
of leadership and responsibility in planning and directing a comprehensive program of action and advocacy in
support of the issues that affect and impact employees with disabilities.




            A Special Thank You

       The diligent work, outstanding
       efforts, and many contributions
          from our entire OIG staff
         make the accomplishments
       highlighted in this Semiannual
        Report to Congress possible.

     We would like to thank them for
        their dedicated spirit and
             many successes.




October 1, 2010 - March 31, 2011                                                                               41
Reporting Requirements
         and
      Appendices
                                                                                               Semiannual Report to Congress




            Reporting Requirements
            This report meets the requirements of the Inspector General Act of 1978, as amended,
            and includes information mandated by the Congress.



                   Section                              Requirement                                 Page(s)

                 Section 4(a)(2)    Review of legislation and regulations                             N/A


                 Section 5(a)(1)    Significant problems, abuses, and deficiencies                    8-41


                 Section 5(a)(2)    Recommendations with respect to significant problems,             8-12
                                    abuses, and deficiencies                                         23-25

                 Section 5(a)(3)    Recommendations described in previous Semiannual                Appendix
                                    Reports on which corrective actions are incomplete               F&G

                 Section 5(a)(4)    Matters referred to prospective authorities and the              13-20
                                    prosecutions and convictions that have resulted                  26-33

                Section 5(a)(5) &
                                    Summary of instances where information was refused                N/A
                 Section 6(b)(2)


                 Section 5(a)(6)    List of audits                                                 Appendix B


                                                                                                      8-12
                 Section 5(a)(7)    Summary of particularly significant reports
                                                                                                     23-25

                                    Table showing the total number of audit reports and total
                 Section 5(a)(8)                                                                   Appendix A
                                    dollar value of questioned costs

                                    Table showing the total number of audit reports and total
                 Section 5(a)(9)                                                                   Appendix A
                                    dollar value of funds put to better use

                                    Audit recommendations more than 6 months old for
                Section 5(a)(10)                                                                   Appendix A
                                    which no management decision has been made

                                    Significant management decisions that were revised
                Section 5(a)(11)                                                                      N/A
                                    during the reporting period

                                    Significant management decisions with which the
                Section 5(a)(12)                                                                   Appendix D
                                    Inspector General disagrees

                Section 5(a)(14)
                                    Results of Office of Inspector General Peer Reviews            Appendix H
               (A and B) (15)(16)


                                                                                          Reporting Requirements  •

October 1, 2010 - March 31, 2011                                                                                         43
Semiannual Report to Congress




          Appendix A: Resolving Audit Recommendations
          The following chart summarizes SSA’s responses to our recommendations for the recovery
          or redirection of questioned and unsupported costs. Questioned costs are those costs that are
          challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that
          are questioned because they are not justified by adequate documentation. This information is
          provided in accordance with P.L. 96- 304 (the Supplemental Appropriations and Recession
          Act of 1980) and the Inspector General Act of 1978, as amended.


                            Reports with Questioned Costs for the Reporting Period
                                           October 1, 2010 – March 31, 2011
                                                                                    Value           Value
                                                                Number
                                                                                  Questioned     Unsupported
                A.	For which no management decision had
                   been made by the commencement of the             20            $135,606,109     $71,463,481
                   reporting period.
                B.	Which were issued during the reporting
                                                                   17 a           $108,240,775     $44,104,582
                   period.


                 	 Subtotal (A + B)                                 37            $243,846,884    $115,568,063


                	Less:


                C.	For which a management decision was
                                                                    9             $119,300,378     $44,584,791
                   made during the reporting period.


                	 i.	 Dollar value of disallowed costs.             8             $111,817,668     $44,584,791


                	 ii.	 Dollar value of costs not disallowed.        1               $7,482,710               $0

                D.	For which no management decision had
                   been made by the end of the reporting            29            $124,546,506     $70,983,272
                   period.

          ­a.
                See Reports with Questioned Costs in Appendix B of this report.




44                                                                                         October 1, 2010 - March 31, 2011
                                                                                            Semiannual Report to Congress




            The following chart summarizes SSA’s response to our recommendations that funds be
            put to better use through cost avoidances, budget savings, etc.


                   Reports with Recommendations that Funds Be Put to Better Use
                        Reporting Period October 1, 2010 - March 31, 2011

                                                                                  Number      Dollar Value
              A. For which no management decision had been made
                                                                                      4          $54,251,930
              by the commencement of the reporting period.

              B.	 Which were issued during the reporting period.                      2a         $27,667,163


              		    Subtotal (A + B)                                                  6          $81,919,093


               	 Less:

              C.	 For which a management decision was made during
                  the reporting period.
               i. Dollar value of recommendations that were agreed to
                                                                                      1             $255,168
                  by management.

               (a) Based on proposed management action.                               1              255,168


               (b) Based on proposed legislative action.                              0                   $0


               ii.	Dollar value of costs not agreed to by management.                 1           $9,790,704


              		    Subtotal (i + ii)                                                 2          $10,045,872

              D.	 For which no management decision had been made
                                                                                      4          $71,873,221
              by the end of the reporting period.


               ­a. See Reports with Funds Put to Better Use in Appendix B of this report.




October 1, 2010 - March 31, 2011                                                                                      45
Semiannual Report to Congress




          Appendix B: Reports Issued
                                Reports with Non-Monetary Findings
                                   October 1, 2010 – March 31, 2011
           Audit Number                               Report                                Issue Date

                            Congressional Response Report: The Social Security
           A-08-10-20181                                                                    10/15/2010
                            Administration's Financial Literacy Research Consortium

                            Management Advisory Report: Single Audit of the State of
           A-77-11-00001                                                                    10/21/2010
                            Montana for the 2-Year Period Ended June 30, 2009

                            Customer Waiting Times in the Social Security
           A-04-10-11034                                                                    10/27/2010
                            Administration's Field Offices

                            The Social Security Administration's Approval and
           A-14-10-21082                                                                    10/27/2010
                            Monitoring of the Use of Software

                            Congressional Response Report: The Social Security
           A-14-11-21138    Administration's Disaster Recovery Capabilities (Limited         11/1/2010
                            Distribution)

                            Monitoring Controls for the Help America Vote Verification
           A-03-09-29114                                                                     11/5/2010
                            Program

                            Fiscal Year 2010 Inspector General Statement on the
           A-02-11-11131    Social Security Administration's Major Management and            11/8/2010
                            Performance Challenges

           A-15-10-10113    Fiscal Year 2010 Financial Statement Audit Oversight             11/8/2010

                            Field Office Workload Related to Nonconfirmation
           A-03-09-19052                                                                     11/9/2010
                            Responses from the Employment Verification Program

                            Identifying Requirements for the Disability Case Processing
           A-44-10-20101                                                                     11/9/2010
                            System Based on Findings from Prior Audits

                            Management Advisory Report: Single Audit of the State of
           A-77-11-00002                                                                     11/9/2010
                            California for the Fiscal Year Ended June 30, 2009

                            Congressional Response Report: The Social Security
           A-13-11-21110                                                                    11/10/2010
                            Administration's Facilities Management

                            The Social Security Administration's Controls for Ensuring
           A-14-10-11003    the Removal of Sensitive Data from Excessed Computer            11/10/2010
                            Equipment




46                                                                                 October 1, 2010 - March 31, 2011
                                                                                        Semiannual Report to Congress




                                   Reports with Non-Monetary Findings
                                    October 1, 2010 – March 31, 2011
                             Fiscal Year 2010 Evaluation of the Social Security
            A-14-10-20109    Administration's Compliance with the Federal Information          11/10/2010
                             Security Management Act
                             Office of Disability Adjudication and Review Decision-
            A-02-09-19068                                                                      11/17/2010
                             Writing Process
                             Management Advisory Report: Single Audit of the
            A-77-11-00003    Government of the District of Columbia for the Fiscal Year        11/24/2010
                             Ended September 30, 2009

                             Job Information Used in the Social Security Administration’s
            A-01-10-21024                                                                      11/30/2010
                             Disability Claims Adjudication Process

                             Threats Against Social Security Administration Employees or
            A-06-10-20123                                                                      11/30/2010
                             Property

                             The Social Security Administration's Informing Beneficiaries
            A-15-09-19075                                                                      11/30/2010
                             of Domestic Electronic Banking Options

                             Management Advisory Report: Single Audit of the State of
            A-77-11-00005                                                                       12/1/2010
                             Colorado for the Fiscal Year Ended June 30, 2009


                             Accuracy of Diagnosis Codes in the Social Security
            A-06-09-19128                                                                       12/8/2010
                             Administration's Databases

                             Office of Disability Adjudication and Review Hearing
            A-07-10-20171                                                                      12/14/2010
                             Request Dismissals

                             Management Advisory Report: Single Audit of the State of
            A-77-11-00006                                                                      12/14/2010
                             Illinois for the Fiscal Year Ended June 30, 2009

                             Management Advisory Report: Single Audit of the State of
            A-77-11-00007                                                                      12/20/2010
                             Arizona for the Fiscal Year Ended June 30, 2009

                             Management Advisory Report: Single Audit of the State of
            A-77-11-00008                                                                      12/20/2010
                             Ohio for the Fiscal Year Ended June 30, 2009


            A-15-10-11073    Performance Indicator Audit: Electronic Service Delivery          12/27/2010




October 1, 2010 - March 31, 2011                                                                                  47
Semiannual Report to Congress




                                Reports with Non-Monetary Findings
                                  October 1, 2010 – March 31, 2011
                           The Social Security Administration's Reporting of High-
         A-15-10-21142                                                                       12/30/2010
                           Dollar Overpayments Under Executive Order 13520

                           The Social Security Administration’s Electronic Claims
         A-01-10-11010                                                                         1/5/2011
                           Analysis Tool

         A-15-10-11074     Performance Indicator Audit: Disability Process                    1/24/2011


         A-06-10-20144     Supplemental Security Income Double Check Negotiations             1/28/2011

                           The Social Security Administration's New Data Center Site
         A-14-10-20184                                                                        2/10/2011
                           Alternatives (Limited Distribution)

                           Impact of Alien Nonpayment Provisions on Field Offices
         A-08-10-20140                                                                        2/15/2011
                           Along the Mexican Border

                           The Social Security Administration's Month of Election
         A-08-10-20183                                                                        2/15/2011
                           Policy for Retirement Benefits

                           An Individual Representative Payee for the Social Security
         A-15-10-11077                                                                        2/23/2011
                           Administration in Grand Rapids, Michigan

                           Congressional Response Report: Office of Disability
         A-12-10-20169     Adjudication and Review's Scheduling Procedures for                2/25/2011
                           Hearings

         A-15-10-11075     Performance Indicator Audit: Hearings and Appeals Backlog          2/25/2011

                           The Social Security Administration's Guard Service Contract
         A-15-10-11089     for Headquarters, the National Computer Center, and                2/28/2011
                           Security West

                           Consultative Examinations at the Indiana Disability
         A-05-10-21061                                                                         3/1/2011
                           Determination Bureau

                           Congressional Response Report: Applicant Experiences with
         A-07-10-20167                                                                         3/7/2011
                           Retirement Insurance Benefit Internet Claim Applications

                           The Social Security Administration’s Response to State
         A-01-11-11116                                                                        3/22/2011
                           Furloughs Impacting its Disability Programs




48                                                                                   October 1, 2010 - March 31, 2011
                                                                                     Semiannual Report to Congress




                                   Reports with Non-Monetary Findings
                                    October 1, 2010 – March 31, 2011
                            Annual Representative Payee Accounting Report Non-
          A-06-10-11069                                                                     3/28/2011
                            responders

                            Follow-up: Personally Identifiable Information Made
          A-06-10-20173     Available to the Public Via the Death Master File (Limited      3/31/2011
                            Distribution)




October 1, 2010 - March 31, 2011                                                                               49
Semiannual Report to Congress




                                      Reports with Questioned Costs
                                     October 1, 2010 – March 31, 2011
      Audit Number     Issue Date                         Report                          Dollar Amount

                                      Federal Employees Receiving Both Federal
      A-15-09-19008     10/14/2010    Employees' Compensation Act and Disability            $43,991,444.00
                                      Insurance Payments

                                      Dedicated Account Underpayments Payable to
      A-09-09-29110     11/10/2010                                                          $34,976,646.00
                                      Children


                                      Indirect Costs Claimed by the California
      A-09-10-11079     11/16/2010                                                           $8,128,431.00
                                      Disability Determination Services


                                      Claimant Representative Fees Paid Through
      A-04-10-11026     11/24/2010    the Social Security Administration's One-Time          $7,482,710.00
                                      Payment System

                                      Management Advisory Report: Single Audit of
      A-77-11-00004     11/24/2010    the Commonwealth of Massachusetts for the                 $12,772.00
                                      Fiscal Year Ended June 30, 2009


                                      Social Security Administration Employees' Use
      A-02-09-29089      12/8/2010                                                               $9,187.00
                                      of Discounted Airfares


                                      The Social Security Administration’s Voice over
      A-14-09-19045     12/28/2010                                                           $1,060,000.00
                                      Internet Protocol Contract


                                      Recovery of Title II Payments Issued After
      A-09-10-11037       1/4/2011                                                          $18,816,960.00
                                      Beneficiaries’ Deaths


                                      Economic Recovery Payments - Catch-Up
      A-09-10-11099      1/10/2011                                                             $153,750.00
                                      Payments


      A-01-10-20115      2/23/2011    Underpaid Disabled Widows                             $14,254,260.00




50                                                                                 October 1, 2010 - March 31, 2011
                                                                                        Semiannual Report to Congress




                                     Reports with Questioned Costs
                                    October 1, 2010 – March 31, 2011
                                     The Developmental Disabilities Association of
                                     New Jersey, Incorporated - An Organizational
      A-02-10-41084     2/23/2011                                                                  $60,063.00
                                     Representative Payee for the Social Security
                                     Administration
                                     Accuracy of Fiscal Year 2009 Title II Disability
      A-04-10-11014     2/23/2011    Insurance Benefit Payments Involving Workers'              $7,890,278.00
                                     Compensation Offsets

                                     Management Advisory Report: Interim Audit of
      A-77-11-00009     2/23/2011                                                                 $197,000.00
                                     the State of California for Fiscal Year 2010


                                     Implementation of Phase I of the Martinez
      A-01-10-10160     2/25/2011                                                              $15,178,263.00
                                     Settlement Agreement


                                     An Individual Representative Payee for the Social
      A-15-09-19062     3/3/2011                                                                   $96,971.00
                                     Security Administration in Michigan

                                     Gateway Representative Payee Program, an
      A-08-10-11048     3/7/2011     Organizational Representative Payee for the                    $5,275.00
                                     Social Security Administration

                                     Emerge, Incorporated, an Organizational
      A-13-10-21087     3/31/2011    Representative Payee for the Social Security                  $31,347.00
                                     Administration

       TOTAL
                                                                                              $152,345,357.00




October 1, 2010 - March 31, 2011                                                                                  51
Semiannual Report to Congress




                                Reports with Funds Put to Better Use
                                 October 1, 2010– March 31, 2011

     Audit Number      Issue Date                      Report                      Dollar Amount

                                     Accuracy of Fiscal Year 2009 Title II
     A-04-10-11014      2/23/2011    Disability Insurance Benefit Payments             $2,075,196.00
                                     Involving Workers' Compensation Offsets

                                     Improperly Titled Bank Accounts for
     A-01-09-19055      3/31/2011                                                     $25,591,967.00
                                     Beneficiaries with Representative Payees


                                      TOTAL                                           $27,667,163.00




52                                                                              October 1, 2010 - March 31, 2011
                                                                                    Semiannual Report to Congress




         Appendix C: Reporting Requirements Under the
         Omnibus Consolidated Appropriations Act of
         FY 1997
         To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L.
         104-208, we are providing requisite data for the first half of FY 2009 from the Offices of
         Investigations and Audit in this report.
         Office of Investigations
         We are reporting over $36 million in SSA funds as a result of our investigative activities in
         this reporting period (10/1/10 – 3/31/11). These funds are broken down in the table below.

                                                Investigative Activities

                               1st Quarter                2nd Quarter
                                                                                           Total
                           10/1/10 – 12/31/10           1/1/11 – 3/31/11

              Court
             Ordered               $6,624,238              $8,820,132                   $15,444,370
            Restitution

            Recoveries             $8,100,455              $11,637,383                  $19,737,838


              Fines                 $81,517                 $314,670                     $396,187


           Settlements/
                                   $315,033                 $369,118                     $684,151
            Judgments


             TOTAL             $15,121,243                 $21,141,303                 $36,262,546



         Office of Audit
         SSA management has informed us that it has completed implementing recommendations
         from 15 audit reports during this time period valued at over $5 billion.
         disAbility insurance and supplemental security income claims
         approved in 2006 but not paid (A-01-10-11009, 7/16/2010)




October 1, 2010 - March 31, 2011                                                                              53
Semiannual Report to Congress




            We recommended that SSA complete its work on the 45 unpaid claimants and 16 widows we
            identified and ensure all past due benefits are paid to beneficiaries as appropriate. The implemented
            value of this recommendation is $255,168.
            follow-up of pending workers’ compensation (A-08-09-19167, 7/12/10)
            We recommended that SSA develop a plan for addressing its backlog of Title II disability cases
            having pending WC issues and establish target goals for reducing improper payments resulting
            from unreported WC payments. The implemented value of this recommendation is $44,000,910.
            plan to achieve self-support program(A-01-09-19034, 5/18/2010)
            We recommended that SSA reinforce its Plan to Achieve Self-Support (PASS) cadres that
            PASSes should be for feasible and realistic goals that are expected to increase: a) the recipient’s
            prospect for self-support; and b) the likelihood of savings to SSA’s programs. The implemented
            value of this recommendation is $17,272,273.
            AGED BENEFICIARIES IN NEED OF REPRESENTATIVE PAYEES (A-09-09-29002,
            4/5/2010)
            We recommended that SSA take appropriate action (for example, perform a capability
            determination and select a representative payee, if needed) for the 61 incapable beneficiaries
            identified by the audit. The implemented value of this recommendation is $59,757.
            FULL MEDICAL CONTINUING DISABILITY REVIEWS (A-07-09-29147, 3/30/2010)
            We recommended that SSA work with the Congress to secure the funds necessary to eliminate the
            existing full medical continuing disability review (CDR) backlog and to conduct the CDRs that
            become due each year. To the extent resources are not available to conduct the CDRs that become
            due each year, report the reasons and the associated impact on Federal benefit payments in its
            annual report to the Congress. The implemented value of this recommendation is $1,866,554,418.
            ADMINISTRATIVE COSTS CLAIMED BY THE ARIZONA DISABILITY
            DETERMINATION SERVICES (A-09-09-19020, 3/8/2010)
            We recommended that SSA ensure the Arizona Disability Determination Services improves controls
            over its estimates of unliquidated obligations. The implemented value of this recommendation
            is $1,848,331.
            IMPROPER PAYMENTS RESULTING FROM UNRESOLVED DELAYED
            CLAIMANTS (A-09-08-18006, 9/25/2009)
            We recommended that SSA take corrective action to properly resolve the 28 delayed claims
            identified by the audit. The implemented value of this recommendation is $89,229.
            FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
            SUSPENDING COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS (A-04-
            09-19039, 9/2/2009)
            We recommended that SSA continue to urge staff compliance with existing policy when suspending
            Title XVI overpayments and hold accountable those employees who do not follow established
            criteria. The implemented value of this recommendation is $29,642,820.




54                                                                                        October 1, 2010 - March 31, 2011
                                                                                            Semiannual Report to Congress




        FOLLOW-UP: CONCURRENT TITLE II AND TITLE XVI BENEFICIARIES RECEIVING
        REPRESENTATIVE PAYEE AND DIRECT PAYMENTS (A-09-09-19019, 8/20/2009)
        We recommended that SSA conduct periodic matches and/or develop systems alerts to identify and
        correct instances in which concurrent payments are made directly to beneficiaries and representative
        payees. The implemented value of this recommendation is $68,343,038.
        DISABLED BENEFICIARIES HIDING WAGES (A-15-07-17088, 7/16/2009)
        We recommended that SSA perform a work continuing disability review on the 300 cases referred to
        it. The implemented value of this recommendation is $8,377,620.
        SUPPLEMENTAL SECURITY INCOME REDETERMINATIONS (A-07-09-29146, 7/14/2009)
        We recommended that SSA establish a methodology to identify the number of redeterminations that
        are needed each year. To the extent the annual number of necessary redeterminations is not completed,
        identify the lost savings and document the reasons the number of needed redeterminations was not
        completed. The implemented values of these recommendations are $3,255,531,018.
        ESTABLISHMENT OF DEDICATED ACCOUNTS (A-13-08-28122, 5/26/2009)
        We recommended that SSA remind staff of policies and procedures for dedicated accounts, including
        how to properly record the dedicated account on the Supplemental Security Record. The implemented
        value of this recommendation is $6,589,840.
        PAYMENTS TO SPOUSES ELIGIBLE FOR HIGHER RETIREMENT BENEFITS (A-09-
        08-18007, 12/16/2008)
        We recommended that SSA identify and notify beneficiaries receiving spousal benefits of their eligibility
        to receive higher retirement benefits on their own earnings records at full retirement age and/or age
        70. The implemented value of this recommendation is $208,996,900.
        TICKET TO WORK AND SELF-SUFFICIENCY PROGRAM COST EFFECTIVENESS
        (A-02-07-17048, 8/11/2008)
        We recommended that SSA work with the Congress to reform or end the Ticket Program if the Agency
        determines it is not having the desired impact and/or it is not cost-effective. The implemented value
        of this recommendation is $138,000,000.
        THE SOCIAL SECURITY ADMINISTRATION’S ABILITY TO REACH INDIVIDUALS
        USING THE SOCIAL SECURITY STATEMENT (A-15-07-17095, 1/11/2008)
        We recommended that SSA implement an internal control process that would prevent Statements with
        incomplete domestic addresses from being mailed. The implemented value of this recommendation
        is $1,500,000.




October 1, 2010 - March 31, 2011                                                                                      55
Semiannual Report to Congress




          Appendix D: Significant Management Decisions
          With Which the Inspector General Disagrees
          There are no significant management decisions with which the Inspector General disagrees.




56                                                                            October 1, 2010 - March 31, 2011
                                                                                               Semiannual Report to Congress




           Appendix E: Collections from Investigations
           and Audits
           The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to
           report additional information concerning actual cumulative collections and offsets achieved
           as a result of OIG activities each semiannual period.

           Office of Investigations

                        Total Restitution Reported by DOJ as Collected for SSA

                                         Total Number of
                                                                    Court Ordered             Total Restitution
                                       Individuals Assigned
                      FY                                           Restitution for This         Collected by
                                          Court Ordered
                                                                         Period                     DOJ
                                            Restitution
                      2009                       603                    $24,126,913             See Footnote1

                      2010                       447                    $20,670,938             See Footnote1

                      2011
                                                 290                    $13,176,655             See Footnote1
               (10/1/10 - 3/31/11)

                    TOTAL                       1,340                   $57,974,506             See Footnote1
           1
            DOJ migrated collection data to a new computer system and is working to generate reports that will
           provide us with this information.



                                Recovery Actions Based on OI Investigations

                                         Total Number of Recovery
                      FY                                                           Amount for Recovery
                                             Actions Initiated

                     2009                               954                                        $23,376,566

                     2010                              1,128                                       $36,431,093

                     2011
                                                        605                                        $19,737,838
               (10/1/10-3/31/11)

                   TOTAL                               2,687                                       $79,545,497




October 1, 2010 - March 31, 2011                                                                                         57
Semiannual Report to Congress




     Office of Audit
     The following chart summarizes SSA’s responses to our recommendations for the recovery or
     redirection of questioned and unsupported costs. This information is prepared in coordination
     with SSA’s management officials and was current as of March 31, 2011.


                                 SSA’s Responses to OIG’s Recommendations
                           Recovery or Redirection of Questioned and Unsupported Costs
               Reports with    Questioned/
                                                  Management       Amount Collected Amount Written-
       FY      Questioned      Unsupported                                                                      Balance2
                                                  Concurrence      or to be Recovered Off/Adjustments
                  Costs           Costs

       2009         28        $3,124,063,484      $1,664,149,576     $1,466,789,938       $1,451,103,302       $206,170,244


       2010         21        $1,416,191,419      $1,377,368,219     $1,354,769,915           $1,157,159         $60,264,345


       2011         17          $152,345,357         $79,028,090                   $0         $7,482,710       $144,862,647


     TOTAL          66        $4,692,600,260      $3,120,545,885     $2,821,559,8531     $1,459,743,171        $411,297,236


        1
         The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the
        OIG.
        2
         Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/
        Adjustments




58                                                                                             October 1, 2010 - March 31, 2011
                                                                                      Semiannual Report to Congress




            A P P E N DI X F: S i g n i f i c a n t M o n e ta r y
            Recommendations From Prior FYs for Which
            Corrective Actions Have Not Been Completed

            SUPPLEMENTAL SECURITY INCOME RECIPIENTS ELIGIBLE FOR
            VETERANS BENEFITS (A-01-09-19031, 1/6/2010)
            Results of Review: We found that some Supplemental Security Income (SSI) recipients
            appeared potentially eligible for Department of Veterans Affairs (VA) benefits instead of SSI
            payments. Based on our review, we estimate SSA paid about $1.3 billion to approximately
            22,000 SSI recipients who appeared to meet the VA requirements for benefits. In addition,
            we estimate that SSA will continue to pay about $126 million in SSI payments over the next
            12 months to individuals who appeared eligible for VA benefits instead of SSI payments .
            For example, in one case, a disabled SSI recipient had military earnings during the Vietnam
            era. This recipient served in the Army from October 1968 to July 1970 for approximately
            640 days—with at least 1 day during wartime—and received an honorable discharge from
            the military. Therefore, he appeared to meet VA’s requirements for benefits and received
            about $104,000 in SSI payments from January 1993 to June 2009. According to SSA’s
            systems, there was no indication this individual had applied for VA benefits.
            VA benefits are generally of greater monetary value than SSI payments—so it is usually
            more advantageous for the individuals to receive VA benefits. Specifically, in Fiscal Year
            2007, the average monthly VA benefit was $709, whereas the average monthly SSI payment
            was $468. Therefore, if these individuals are in fact eligible for VA benefits, they could
            receive higher monthly benefit payments.
            Recommendation: SSA should continue the efforts to work with the VA to ensure
            individuals who should be receiving VA benefits instead of SSI payments are, in fact,
            receiving VA benefits.
            Agency Response: SSA agreed with the recommendation.
            Valued at: $1,282,736,960 in questioned costs and $125,579,060 in funds put to better use.
            Corrective Action: SSA will continue to work with the VA to identify SSI recipients who
            may be eligible for VA benefits. In addition, SSA will ensure that those SSI recipients
            who are eligible for VA benefits take necessary actions to apply and receive VA benefits.
            SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO CONCURRENT
            BENEFICIARIES RESULTING FROM INCORRECT BENEFIT CALCULATIONS
            (A-06-09-29103, 9/24/2009)
            Results of Review: In March 2009, we identified 338 concurrent beneficiaries from 1 of 20
            payment record segments, who received excessive SSI payments because SSA erroneously




October 1, 2010 - March 31, 2011                                                                                59
Semiannual Report to Congress




            offset their SSI payment using Old-Age, Survivors and Disability Insurance (OASDI)
            benefit amounts that were not adjusted to reflect recent benefit payment increases. SSA
            overpaid these beneficiaries $18,604 per month in Federal SSI payments and another
            $2,557 per month in State supplemental benefits as a result of these errors. Most of
            these errors involved instances where SSA was collecting OASDI overpayments from
            the beneficiaries. A specific systems input associated with these payments unintentionally
            froze the OASDI benefit amounts used in the SSI unearned income offset computations.
            Based on our audit results, we estimate SSA issued overpayments to approximately 6,800
            concurrently entitled beneficiaries because SSA erroneously offset their SSI payments
            using OASDI benefit amounts that were not adjusted to reflect recent benefit payment
            increases. If these errors are not corrected, we estimate that SSA will issue approximately
            $5.1 million in excessive SSI payments to these beneficiaries over the next 12 months.
            Recommendation: SSA should review the 7,214 cases provided and take appropriate
            action to correct the errors and prevent future errors.
            Valued at: $5,078,640 in funds put to better use.
            Agency Response: SSA agreed with the recommendation.
            Corrective Action: SSA received a work year for the resources needed to complete these
            cases. Corrective action has not been completed on these cases, however SSA believed
            the cases would be completed by Spring 2011.


            FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS
            OVER SUSPENDING COLLECTION EFFORTS ON TITLE XVI
            OVERPAYMENTS (A-04-09-19039, 9/2/2009)
            Results of Review: We found that SSA took action on three of the recommendations
            in our prior report. However, funding limitations delayed development of an automated
            system that would address the two remaining recommendations. SSA’s corrective actions
            resulted in some improvements in the error rates we previously reported. However, we
            still found similar conditions identified in the prior report.
            We also found that SSA did not always (1) document the justification for the decisions to
            suspend overpayment collection efforts and (2) obtain the required management approval
            before suspending an overpayment. On occasion, SSA personnel suspended collection
            efforts when debtors or the debtors’ representative payees had reported earnings that may
            have enabled some repayment. Also, SSA personnel suspended collections of some debts
            and classified the debtors as unable to locate or out of the country even though we did
            not find evidence that SSA attempted to contact the debtors or the debtors’ representative
            payees through their current employer. Overall, we estimated for 6,500 cases, totaling
            $52.2 million, SSA personnel did not follow policies and procedures when it suspended
            overpayment collection efforts.




60                                                                                October 1, 2010 - March 31, 2011
                                                                                       Semiannual Report to Congress




            Recommendation: SSA should consider revising the May 2009 policy to require the
            2-PIN process (management approval) for suspension decisions controlled by the
            Recovery and Collection of Overpayment Process.
            Valued at: $22,639,420 in funds put to better use.
            Agency Response: SSA agreed with the recommendation.
            Corrective Action: SSA will investigate the feasibility of requiring a 2-PIN process for
            suspension decisions controlled by Recovery and Collection of Overpayments System.
            SSA expected to make a decision by the end of September 2010.
            FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S PRISONER
            INCENTIVE PAYMENT PROGRAM (A-01-09-19029, 8/20/2009)
            Results of Review: Our audit found that SSA’s procedures do not ensure that incentive
            payments to institutions that provide inmate information are being made in accordance
            with the provisions in the Act. Based on our review of 275 sample cases, we estimate
            about 119,862 incentive payments were issued incorrectly, resulting in approximately
            $30.3 million in OASDI and SSI program funds that should not have been paid.
            SSA informed us that, in June 2004, it developed a technical amendment that, if enacted,
            would amend the Act to align with how SSA programmed its systems to pay prisoner
            incentive payments. However, the Agency never submitted the proposal to the Congress.
            Recommendation: SSA should implement a system to pay incentive payments according
            to the Act to facilitate reporting inmate information.
            Valued at: $30,281,018 in questioned costs.
            Agency Response: SSA agreed with the recommendation.
            Corrective Action: SSA agreed there is a discrepancy between the incentive payment
            provisions in the statute and the procedures we follow to issue incentive payments. As
            of January 2011, we are investigating options to address this issue.
            PAYMENTS TO INDIVIDUALS WHOSE NUMIDENT RECORD CONTAINS
            A DEATH ENTRY (A-06-08-18095, 6/26/2009)
            Results of Review: Based on our results, we estimate that SSA made approximately
            $40.3 million in improper payments to deceased beneficiaries after recording their date
            of death in SSA’s records. Further, we estimate SSA would make approximately $6.9
            million in additional improper payments over the next 12 months if these discrepancies
            were not corrected.
            Recommendation: SSA should terminate benefits, recover improper payments, and refer
            potential instances of fraud to the Office of Investigations for all beneficiaries determined
            to be deceased during living status verifications.
            Valued at: $40,258,680 in questioned costs and $6,936,540 in funds put to better use.




October 1, 2010 - March 31, 2011                                                                                 61
Semiannual Report to Congress




        Agency Response: SSA agreed with the recommendation.
        Corrective Action: SSA will investigate the vital status of these 6,733 beneficiaries to determine
        which ones are incomplete. The Agency will send a follow-up memo to the Regions to request
        final resolution of the pending cases.
        FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS
        REPORTED ON THE MASTER EARNINGS FILE (A-01-08-28075, 4/15/2009)
        Results of Review: Our audit found that the Agency made efforts to reduce overpayments
        resulting from work activity. However, we found that SSA did not evaluate all earnings, and as a
        result, overpayments resulted from work activity.
        Based on our review, we estimate that approximately $3.1 billion was overpaid to about 173,000
        disabled beneficiaries because of work activity. Although SSA identified about 58 percent of
        these overpayments, we estimate the remaining 42 percent—approximately $1.3 billion—went
        undetected by the Agency to about 49,000 disabled beneficiaries. In addition, we estimate SSA
        will continue to incorrectly pay about $382 million over the next 12 months to individuals who
        are no longer entitled to disability benefits if action is not taken by the Agency.
        SSA performed 170,664 work-related CDRs in 2008 at a unit cost of $397.45. Based on our
        review, we estimate about $3.1 billion was overpaid to approximately 173,000 disabled beneficiaries
        (out of 518,080 in the estimated universe) because of work activity. To perform work-related
        CDRs for all 518,080 disabled beneficiaries, it would cost SSA about $206 million (assuming the
        $397.45 unit cost remains the same). This results in a potential benefit-cost ratio of $15.0 to $1.0.
        We recognize SSA’s efforts to improve the work-related CDR process. In addition, we acknowledge
        the Agency’s limited resources with which to perform this workload. However, we believe SSA
        may achieve greater savings in the long-term if the Agency could provide the resources to perform
        work-related CDRs for all disabled beneficiaries with substantial earnings reported on the Master
        Earnings File.
        Recommendation: SSA should develop and implement a plan to allocate more resources to
        timely perform work-related continuing disability reviews—and assess overpayments resulting
        from work activity—for cases identified by the Agency’s earnings enforcement process.
        Valued at: $1,335,815,580 in questioned costs and $381,563,100 in funds put to better use.
        Agency Response: SSA agreed with the recommendation.
        Corrective Action: SSA convened a workgroup in January 2010. Improvements were made as
        follows:
        Management Information (MI)
        -	      Thousands of extraneous items were deleted from the work CDR MI data source
        -	      Establishing an Agency report to track work CDRs—currently being validated
        Strike Plan
        -	     Strike teams were formed to streamline work CDR processing and reduce the pending
        aged cases



62                                                                                  October 1, 2010 - March 31, 2011
                                                                                    Semiannual Report to Congress




          -	     Quarterly reports are made to track progress
          Overpayments
          -	     An overpayment report was developed and is now being validated
          -	     Enforcement cases are now prioritized and processed by highest earnings
          CONTROLS OVER MISCELLANEOUS PAYMENTS MADE THROUGH THE
          SINGLE PAYMENT SYSTEM (A-09-07-17119, 10/25/2007)
          Results of Review: Our audit disclosed that SSA’s controls to prevent or detect improper or
          duplicate miscellaneous payments were generally effective. However, SSA needed to improve
          its controls over the retention of supporting documentation for miscellaneous Single Payment
          System (SPS) payments and the recording of Social Security numbers for SPS payments issued
          to non-beneficiaries. Based on our review of a random sample of 275 death underpayments
          from the population of 327,580 non beneficiaries, we found that SSA
          -	     improperly paid an estimated $7.3 million to 11,912 non-beneficiaries;
          -	    did not retain adequate supporting documentation for an estimated $98 million in
          payments made to 50,030 non-beneficiaries;
          -	      did not obtain or record the Social Security numbers (SSN) for 176,029 (53 percent)
          of the 332,680 death underpayments issued to non-beneficiaries; and
          -	     paid improper duplicate payments of $27,480 to 3 individuals.
          Recommendation: SSA should establish an appropriate control to ensure the Form SSA-1724
          or other written application for a death underpayment is retained.
          Valued at: $98,280,016 in questioned costs.
          Agency Response: SSA agreed with the recommendation.
          Corrective Action: SSA responded that they are determining which controls would be feasible.
          IMPROPER PAYMENTS RESULTING FROM THE ANNUAL EARNINGS TEST
          (A-09-07-17066, 8/31/2007)
          Results of Review: Our audit disclosed that SSA did not adjust the benefit payments for all
          beneficiaries who were subject to Annual Earnings Test. Based on a random sample of 250
          beneficiaries for Calendar Years 2002 through 2004, we found SSA overpaid $393,117 to
          112 beneficiaries and underpaid $44,264 to 16 beneficiaries. As a result, we estimate SSA
          overpaid about $313 million to 89,300 beneficiaries and underpaid about $35 million to 12,800
          beneficiaries. These payment errors primarily occurred because SSA did not process all records
          identified by its Earnings Enforcement Operation.
          Recommendation: SSA should review and process, as appropriate, all Earnings Enforcement
          Operation selections pending in the Office of Quality Performance since 1996.




October 1, 2010 - March 31, 2011                                                                              63
Semiannual Report to Congress




          Valued at: $348,680,140 in questioned costs.
          Agency Response: SSA agreed with the recommendation.
          Corrective Action: SSA processed all selections from 2004 and is committed to addressing
          all selections from 2005 timely. All selections made prior to 2004 require manual review and
          processing by Operations staff. SSA thoroughly analyzed and evaluated the issues involved
          and determined that there is no possibility that these selections can be addressed via an
          automated solution. Additionally, Operations has indicated that current resources could not
          be redirected from ongoing claims processing workloads to process these selections.


          Significant Monetary Recommendations From Prior
          Semiannual Report to Congress for Which Recent
          Corrective Actions Have Been Made

          FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS
          OVER SUSPENDING COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS
          (A-04-09-19039, 9/2/2009)
          Recommendation: SSA should continue to urge staff compliance with existing policy when
          suspending Title XVI overpayments and hold accountable those employees who do not
          follow established criteria.
          Valued at: $29,642,820 in funds put to better use.
          Corrective Action: Online training is available through the Office of Learning intranet site
          for Title XVI overpayments. There is a specific section in the training which emphasizes
          when to suspend overpayment procedures.
          SUPPLEMENTAL SECURITY INCOME REDETERMINATIONS (A-07-09-29146,
          7/14/2009)
          Recommendation: SSA should establish a methodology to identify the number of
          redeterminations that are needed each year. To the extent the annual number of necessary
          redeterminations is not completed, identify the lost savings and document the reasons the
          number of needed redeterminations was not completed.
          Valued at: $3,255,531,018 in funds put to better use.
          Corrective Action: SSA has conducted a statistical analysis of the impact of completing
          a redetermination of SSI eligibility with detecting overpayments in the SSI program.
          This analysis found that there would be a positive return on investment for performing
          redeterminations on virtually the entire SSI recipient population.




64                                                                              October 1, 2010 - March 31, 2011
                                                                                     Semiannual Report to Congress




          The methodology used to determine which SSI recipients to perform a redetermination on
          each year is based on a predictive model. This predictive model selects the most cost-effective
          cases to undergo an SSI redetermination. The model, which is continually monitored and re-
          estimated, has been in place for many years at SSA and has proven to be highly accurate and
          reliable in identifying likely overpayments. Although SSA’s analysis found that completing
          redeterminations on nearly all segments of the SSI recipient population would be cost effective,
          the Agency’s modeling methodology finds that there is a diminishing rate of return as additional
          redeterminations are performed.
          There are no statutory requirements to complete redeterminations on a given number or
          percentage of SSI recipients each year. SSA determines the annual number of redeterminations
          to complete from the perspective of balanced utilization of our monetary and staffing resources.
          Each year, SSA assures resources are targeted to efficiently complete our various program
          integrity workloads while also meeting all the Agency’s service delivery commitments to the
          public.




October 1, 2010 - March 31, 2011                                                                               65
Semiannual Report to Congress




            APPENDIX G: Significant Non-Monetary
            Recommendations From Prior FYs for Which
            Corrective Actions Have Not Been Completed

            There are no significant management decisions from the prior semiannual report for
            which correction actions have not been completed.




            Significant Non-Monetary Recommendations From
            Prior Semiannual Report to Congress for Which
            Recent Corrective Action Has Been Made

            SOCIAL SECURITY NUMBER MISUSE FOR WORK AND THE IMPACT ON
            THE SOCIAL SECURITY ADMINISTRATION’S MASTER EARNINGS FILE
            (A-03-07-27152, 9/29/2008)
            Recommendation: SSA should consider the development of a cost-effective method to
            automatically post subsequent wage items that have the same characteristics of previously
            disclaimed wage items to the Earnings Suspense File.
            Corrective Action: Corrective software was released in the production environment
            December 2010.




66                                                                               October 1, 2010 - March 31, 2011
                                                                                  Semiannual Report to Congress




         APPENDIX H: Office of the Inspector General
         Peer Reviews

         Office of Investigations
         • Our Office of Investigations is required to undergo a peer review every three years to ensure
         general and qualitative standards comply with the requirements of the Quality Standards for
         Investigations adopted by the CIGIE. The peer review also ascertains whether adequate internal
         safeguards and management procedures exist to ensure that the law enforcement powers conferred
         by the 2002 amendments to the Inspector General Act are properly exercised pursuant to Section
         6(e) of the Inspector General Act (as amended) and the United States Attorney General Guidelines
         for Offices of Inspector General with Statutory Law Enforcement Authority.
         • In November 2010, the U.S Postal Service Office of Inspector General (USPS/OIG) notified
         us that our Office of Investigations passed the peer review. In the opinion of the USPS/OIG, the
         system of internal safeguards and management procedures for the investigative function of SSA/
         OIG in effect for the year ending June 30, 2010, complied with the quality standards established
         by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) and the Attorney
         General Guidelines for Offices of Inspector General with Statutory Law Enforcement Authority.
         • There are no outstanding recommendations from prior investigative peer reviews completed by
         us or from prior reviews of our organization.


         Office of Audit
         • Our Office of Audit is required to undergo a peer review every three years, in accordance with
         generally accepted government auditing standards. A copy of the System Review Report can be
         obtained from our website at http://www.ssa.gov/oig/ADOBEPDF/externalreview.pdf.
         • The final System Review Report related to our last peer review, conducted by the Department
         of Justice OIG, was issued in November 2009. We received a rating of pass, which means that
         the review team concluded that the system of quality control for the audit organization had
         been suitably designed and complied with to provide us with reasonable assurance of performing
         and reporting in conformity with applicable professional standards in all material respects. The
         Department of Justice OIG identified no deficiencies that affected the nature of the report.
         Further, there were no findings or recommendations as a result of this peer review.
         • During FY 2010, we conducted a peer review of the Department of Energy OIG, Office of
         Audit Services. We issued our report on March 5, 2010 and made no recommendations as a
         result of this peer review.
         • There are no outstanding recommendations from prior audit peer reviews completed by us or
         from prior reviews of our organization.


October 1, 2010 - March 31, 2011                                                                            67
Semiannual Report to Congress




               Glossary of Acronyms
               AMFED            Allegation Management and Fugitive Enforcement Division
               ANP              Alien Nonpayment Provisions
               BIC-D            Deceased Payee Project
               CDI              Cooperative Disability Investigative
               CMP              Civil Monetary Penalty
               DDS              Disability Determination Services
               DHS              Department of Homeland Security
               DI               Disability Insurance
               DMF              Death Master File
               DOJ              Department of Justice
               DOL              Department of Labor
               ERP              Economic Recovery Payment
               E-Verify         Employment Verification
               EV-STAR          Employment Verification SSA Tentative Noncomfirmation
                                Automated Response
               FECA             Federal Employees’ Compensation Act
               FY               Fiscal Year
               GED              General Education Development
               GSA              General Services Administration
               IO               Immediate Office
               IT               Information Technology
               MBR              Master Beneficiary Record
               NCC              National Computer Center
               OA               Office of Audit
               OASDI            Old-Age, Survivors, and Disability Insurance
               OCIG             Office of the Counsel to the Inspector General
               OER              Office of External Relations
               OI               Office of Investigations
               OIG              Office of the Inspector General


       • Glossary


68                                                                               October 1, 2010 - March 31, 2011
                                                                                 Semiannual Report to Congress




            Glossary of Acronyms (Continued)
             OQAPR          Office of Quality Assurance and Professional Responsibility
             ORP            Organizational Representative Payee
             OTRM           Office of Technology and Resource Management
             PASS           Plan to Achieve Self Support
             PII            Personally Identifiable Information
             Recovery Act   American Recovery and Reinvestment Act of 2009
             SPA            Speical Payment Amount
             SSA            Social Security Administration
             SSI            Supplemental Security Income
             SSN            Social Security Number
             the Act        Social Security Act
             TNC            Tentative Noncomfirmations
             Treasury       Department of the Treasury
             VA             Department of Veterans Affairs
             WC             Workers’ Compensation




                                                                                            Glossary •


October 1, 2010 - March 31, 2011                                                                           69
                   How to Report Fraud

The SSA OIG Fraud Hotline offers a means for you
to provide information on suspected fraud, waste, and
abuse. If you know of current or potentially illegal or
improper activities involving SSA programs or personnel,
we encourage you to contact the SSA OIG Fraud Hotline.


Call ....................... 1-800-269-0271
Write ................... Social Security Administration
                             Office of the Inspector General
                             Attention: SSA Fraud Hotline
                             P.O. Box 17768
                             Baltimore, MD 21235
Fax ........................ 410-597-0118
Online ................. www.socialsecurity.gov/oig

         To obtain additional copies of this report,
                please visit our website at
                www.socialsecurity.gov/oig

                        SSA Pub. No. 85-007
Preventing Fraud, Waste, and Abuse
    www.socialsecurity.gov/oig




         SSA Pub. No. 85-007
